Report of Interim Audit of Superfund Cooperative
Agreement Number CR818689 Clark Atlanta
University
                           TABLE OF CONTENTS
EXECUTIVE SUMMARY

CHAPTERS:

1 INTRODUCTION

PURPOSE

BACKGROUND

SCOPE AND METHODOLOGY

CIRCUMSTANCES AFFECTING AUDIT SCOPE AND RESULTS

CAU RESPONSE

2 CEPER NOT PROPERLY ESTABLISHED

NO CEPER CENTER DIRECTOR

NO CEPER ADMINISTRATIVE OFFICES OR FISCAL OFFICER

NO CEPER ADVISORY BOARD

NO CEPER EXTERNAL REVIEW PROCESS

NO APPROVED QUALITY ASSURANCE PLAN

PROJECTS INCONSISTENT WITH AUTHORIZING STATUTE

ACCOMPLISHMENTS WERE DIFFICULT TO DETERMINE

RECOMMENDATIONS

CAU RESPONSE

OIG EVALUATION OF CAU COMMENTS

3 COOPERATIVE AGREEMENT MISMANAGED

QUESTIONABLE ACTIONS AND COSTS
NONCOMPLIANCE WITH CONDITIONS AND REGULATIONS

PROJECTS OUTSIDE SCOPE OF CA

INADEQUATE BUDGETING AND TRACKING OF EXPENDITURES

MULTIPLE FUNDING SOURCES FOR CEPER PIs

RECOMMENDATIONS

CAU RESPONSE

OIG EVALUATION OF CAU COMMENTS

4 ALLOWABILITY OF COSTS NOT ENSURED

OPINION ON ALLOWABILITY OF COSTS CLAIMED

OPINION ON INTERNAL CONTROL AND COMPLIANCE

RECOMMENDATIONS

CAU RESPONSE

OIG EVALUATION OF CAU COMMENTS

EXHIBIT A - ANALYSIS OF ALLOWABILITY OF COSTS CLAIMED

APPENDIX 1 - ABBREVIATIONS

APPENDIX 2 - DEFINITION OF FINANCIAL TERMS

APPENDIX 3 - OTHER FEDERALLY-FUNDED PROJECTS AT CAU (Available on hard copy only)

APPENDIX 4 - REPORT DISTRIBUTION

                                                 CHAPTER 1
                                               INTRODUCTION

PURPOSE

We have completed an interim audit of Environmental Protection Agency (EPA) Cooperative Agreement No.
CR818689 (the CA) awarded to Clark Atlanta University (CAU). The CA provided funds for a Center for
Environmental Policy, Education, and Research (CEPER) which CAU proposed to create under a congressional
earmark of EPA's Superfund appropriation. We initiated this audit at the request of the Office of Research and
Development's (ORD) Office of Exploratory Research, now the National Center for Environmental Research
and Quality Assurance.

The primary objectives of the audit were to:

   •   Evaluate the progress and accomplishments of CAU through the use of the earmarked funding;
   •   Assess whether CAU complied with the terms of the CA; and

   •   Determine the allowability of the costs claimed by CAU.

BACKGROUND

                                          Clark Atlanta University

CAU is a private educational institution and a member of a consortium of predominantly African American
institutions located in Atlanta, Georgia. CAU receives almost $50 million of Federal assistance each year. CAU
recently completed construction of a $29 million Research Center for Science and Technology funded by the
Department of Energy (DOE). CEPER was supposed to be located in this Research Center building, along with
ten other CAU centers.

                                          Congressional Earmarks

The Fiscal Year (FY) 1991 Superfund appropriation contained a congressional earmark for CAU "Superfund
research" that led to the creation of CEPER. According to EPA, the intent of the earmark was to enhance the
participation of minority scientists, engineers, and students in Superfund research. The FY 1992, 1993, and
1995 Superfund appropriations contained additional earmarks for CAU which were used to fund CEPER.

In FY 1994, there was no congressional earmark for CAU related to CEPER; however, EPA funded CEPER
with $2.5 million from EPA's Superfund base budget. The inclusion of CEPER in the base budget was a result
of EPA's commitment to implement the Minority Academic Institutions task force recommendations of the
early 1990's. CAU's Vice President for Research and Sponsored Programs (VP/R&SP) was a member of the
task force. EPA continued the base budget funding of CEPER in FY 1995.

The appropriation language for CAU's congressional earmarks were as follows:

1991 +$2,000,000 for Superfund research at Clark Atlanta University.

1992 +$2,500,000 for Superfund research at Clark Atlanta University.

1993 +$3,000,000 for Clark Atlanta University Hazardous Substance Research Center.

1995 +$3,500,000 for Clark Atlanta University Hazardous Substance Research Center.

Besides CAU, EPA has five other Hazardous Substance Research Centers. Those five centers were
competitively awarded and established in 1989 at other academic institutions and are expected to operate for
eight years with EPA funding a maximum of 80 percent of costs.

                                                   The CA

CAU applied for the earmarked funding through an Application for Federal Assistance, dated May 17, 1991. On
September 23, 1991, EPA awarded CAU the earmarked funds through a CA under the statutory authority of the
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA) 311(d), Hazardous
Substance Research Centers. EPA's Office of Research and Development (ORD) approved the noncompetitive
award and was responsible for technical review of the assistance proposal. EPA's Grants Administration
Division (GAD) actually issued the CA and was responsible for administrative review of CAU's application.
CAU's VP/R&SP served as the CEPER Project Manager (or Project Director per CAU) and managed the CA
for CAU. An Environmental Engineer and subsequently a Program Analyst in ORD served as the EPA PO
responsible for managing the CA for EPA.

The CA specified an overall project period of five years - October 1, 1991 to September 30, 1996 - and funded
the following project as proposed by CAU in their application for Federal assistance:

Center for Environmental Policy, Education, and Research (CEPER) - Develop a sustainable environmental
center conducting multi-disciplinary educational and research programs, leading to the enhancement of
environmental policy, scientific, and socioeconomic knowledge.

As of June 1995, EPA had awarded CAU a total of $10,732,770 of EPA and other Federal funds through the
CA. The awards were as follows:

Month /
             Award               Description/Purpose of Award
Year
09/91        $ 2,000,000         1991 Congressional Superfund Earmark
03/92        $ 21,300            Workshop on Hazardous Waste and Site Cleanup Dilemma: Role of Academic
                                 Institutions
09/92        $ 2,500,000         1992 Congressional Superfund Earmark
09/92        $ 367,470           Interagency Agreement (IAG) Funds from U.S. Marine Corps. (footnote 1)
09/92        $ 105,000           Conference on Environmental Equity
09/92        $ 22,000            EPA Region 4 Mentoring Program
09/92        $ 112,000           Graduate Program-Environmental Health Sciences and Toxicology
12/93        $ 3,000,000         1993 Congressional Superfund Earmark
05/94        $ 105,000           IAG Funds from U.S. Marine Corps.
09/94        $ 2,500,000         1994 EPA Superfund Base Funding
Total        $10,732,770

The CA required that CAU submit a workplan for CEPER:

A detailed work plan for the activities and outputs of CEPER shall be submitted within 60 days of the start date
of the project for approval by the EPA Project Officer. The plan will be revised as necessary and submitted for
review by the EPA Project Officer with the regular quarterly management reports.

CAU's 1991 CEPER workplan presented the proposed establishment and operations of CEPER for the first two-
year budget period of the CA - October 1991 to September 1993. CAU prepared a second workplan (the 1993
CEPER workplan) for the second two-year budget period of the CA - October 1993 to September 1995.

The 1991 CEPER workplan described the purposes of the CA and CEPER as follows:

1. CEPER was to assist EPA in reshaping its policy, research and technological strategies for addressing future
environmental problems under Superfund associated with ecological and health risks to the general population
for problems of solid and hazardous waste, while at the same time developing infrastructure and producing
manpower to meet future workforce demands;

2. The CA was to provide a link between EPA and CAU for developing the necessary infrastructure to provide
training, research and technology development and demonstration, and engineering opportunities to minority
faculty and students in environmental restoration and waste management under Superfund;

3. CEPER consisted of five major project areas - administrative, technical, infrastructure development, research,
and outreach.

                                       CEPER Projects and Activities

The 1991 and 1993 CEPER workplans contained a total of 28 proposed CEPER projects (see table below) along
with a wide variety of educational and outreach activities. The first 15 projects were in the 1991 CEPER
workplan while the last 13 were in the 1993 CEPER workplan.

The 28 CEPER Projects In The 1991 and 1993 CEPER Workplans
(1) The Emission of Mercury into the Atmosphere.
(2) Rearrangement of Epoxidyl Free Radicals.
(3) Mechanisms of Salt Tolerance in Halophytic & Glycophtic Plants.
(4) Airborne Microorganisms as Continuous Indoor Air Pollutants in Buildings.
(5) Purification & Characterization of Flocculent Materials of Cyanbacteria in Silage Microbial Mat Systems.
(6) Economic Consequences of Subtitle D.
(7) Decomposition of Organophosphorus Compounds over Alumina-Supported Catalysts.
(8) Incineration of Chlorinated Hydrocarbons Using a Catalytically Stabilized Thermal Combustor.
(9) Internalizing the Health Risk of Hazardous Waste into the Cost-Benefit Analysis of Hazardous Waste Sites.
(10) The Neutoxic Potentials of the Environmental Pyridines: Relevance to Parkinson's Disease.
(11) Molecular Cloning & Characterization of the Metallothionein Gene from Cyanobacteria.
(12) Decontamination of Heavy Metal-Polluted Wastewater by Solvent Extraction.
(13) Biological Effects of Cultured Cyanobacteria Mats on the Following Water Contaminants: Enteric
Bacteria; Eutrohpying Minerals; and Heavy Metals.
(14) Determination of Biochemical Effects Produced by the Simultaneous Exposure of Human Cells to Multiple
Environmental Pollutants.
(15) Undergraduate Environmental Science Program Development at CAU: Environmental Seminar, Research,
and Off-Campus Study Coordination.
(16) Biotreatment of Mixed Contaminants with Silage Microbial Mats.
(17) Purification & Characterization of Flocculent Materials of Cyanbacteria in Silage Microbial Mat Systems.
(18) Aerosal Sciences.
(19) Toward the Development of a Comprehensive Academic, Research, & Outreach Program in Earth System
Sciences: (a) Evaluate & Develop Techniques for Collecting & Using Vegatative Emissivities for
Environmental Remote Sensing Applications; (b) Fidelity of Satellite Interferences of Transport from the
Troposphere to the Stratosphere; (c) Project TEAM (Teaching Educators about Meteorology); (d) Project
Skymath; and (e) Futurescape.
(20) Exposure Modeling of Biological Tissue to Electromagnetic Radiation.
(21) Thermodynamic Modeling of Chemical Speciation & Equilibrium Chemistry of Contaminated
Groundwater.
(22) Biological Effects of Cultured Cyanobacteria Mats on the Following Water Contaminants: Enteric
Bacteria; Eutrohpying Minerals; and Heavy Metals.
(23) Environmentally Hazardous Metals-DNA Interactions; Metal Sequestering Polymers.
(24) (a) An Investigation of Airborne Lead Exposures for Sections of the Atlanta Metropolitan Area; (b)
Decision Tool for Assessing Risk to Low-Level Lead Pollutants.
(25) To Study EPA Technological Decision Making in Siting of Solid and Hazardous Waste Facilities: Some
Case Studies.
(26) Investigation of an Innovative Combustion System for Municipal Solid & Hazardous Waste Incineration.
(27) Conference on Environmental Equity.
(28) To Provide National Congress Support; To Study the Characteristics & Needs of the Minority
Environmental Business Community.

SCOPE AND METHODOLOGY

This audit was performed in accordance with the Government Auditing Standards, 1994 Revision, issued by the
Comptroller General of the United States and included tests of CAU's records and other auditing procedures as
we considered necessary. This audit represented an interim audit of the CA with CAU. We conducted our on-
site audit work at the CAU campus in Atlanta, Georgia, between October 1994 and June 1995.

Our evaluation of CAU's performance under the CA covered the period May 1991 through May 1995. The
review of costs claimed was limited to costs incurred during the CA's first budget period, October 1991 through
September 1993, for which a Financial Status Report (FSR) had been completed. This audit formed the basis of
our opinion on CAU's performance under the CA and CAU's costs claimed. However, the scope of our review
and our opinion was impacted by the conditions described in the "Circumstances Affecting Audit Scope and
Results" section of this chapter.

To assess CAU's performance under the CA, we reviewed the terms and conditions of the CA and applicable
laws, regulations, and policies. We discussed CEPER with the current EPA PO, the CAU VP/R&SP (CEPER
Project Manager), the CAU Transportation Director, and various CAU accounting department personnel and
Principal Investigators (PI). We reviewed CAU, GAD, and PO records related to this CA. The audit was also
assisted by an OIG engineering technical review of the CEPER projects described in the 1991 and 1993 CEPER
workplans to determine the relationship of the projects to the CA.

We selected and tested items, including costs claimed, on a judgmental basis. Our audit samples were not
statistically valid for purposes of projecting our results to the entire population associated with these samples.
Therefore, this report only presents the specific findings that we identified in our audit samples.
Auditing standards required that we plan and perform the audit to obtain reasonable assurance about whether
CAU's costs claimed were free of material misstatement and whether there was compliance with laws and
regulations that could materially affect the results of the audit. Accordingly, we performed tests of transactions,
on a sample basis, of all of the cost categories presented in Exhibit A of this report. In addition, this report
describes any material instances of noncompliance that we identified during the audit. However, we did not
conduct a review of CAU's overall compliance for purposes of forming an opinion thereon because such a
review was beyond the scope of the audit. The errors, questionable actions, and control weaknesses disclosed
during the audit caused us to believe that CAU may not be in compliance with the CA or the associated laws
and regulations for those items not tested.

Our audit was limited to the CA. An independent Certified Public Accountant firm conducted audits of CAU's
Federally-funded projects per the requirements of Office of Management and Budget (OMB) Circular A-133.
Those audits identified and reviewed CAU's significant internal controls including the controls established to
ensure compliance with laws, regulations, and the CA. The 1993 A-133 audit report cited problems with CAU's
accounting for Federal grant expenditures (also cited in 1991-1992 report), late FSRs, FSRs not supported by
accounting records, equipment purchased not identified to Federal sponsor or grant, no support for personnel
charges to grants, inadequate tracking and monitoring of cost matching expenditures, and $64,500 in
unsupported CEPER costs. However, our audit identified many wide-spread or significant internal control
weaknesses related to ineligible/unsupported costs, labor charges, procurements, travel, subcontracts, and
equipment that had not been identified in prior OMB Circular A-133 audits. The deficiencies we found could be
prevalent in all sponsored projects at CAU since the problems we identified primarily related to management of
the CA by the VP/R&SP who has administrative control over all sponsored projects at CAU.

In conducting this audit, we obtained an understanding of CAU's internal controls related to the CA. We did not
conduct a review of CAU's overall system of internal controls for purposes of forming an opinion thereon
because such a review was beyond the scope of this audit. Accordingly, we did not rely on CAU's internal
controls in conducting this audit. Our examination of CAU's internal controls was limited to those controls
related to performance and costs claimed under the CA. Material deficiencies in controls are described in
Chapter 4 and Exhibit A.

Because of inherent limitations in any system of internal controls, errors or irregularities may nevertheless occur
and not be detected by CAU or an audit. Since we did not review CAU's internal controls for purposes of
forming an opinion thereon, we cannot provide positive assurance that those CAU controls not tested were
adequate for EPA purposes.

Significant Federal requirements pertinent to the audit included:

Federal Grant and Cooperative Agreement Act of 1977.

CERCLA 311(d), Hazardous Substance Research Centers.

OMB Circular A-21, Cost Principles for Educational Institutions.

OMB Circular A-133, Audits of Institutions of Higher Education and Other Nonprofit Institutions.

40 Code of Federal Regulation (CFR) 30, General Regulation for Assistance Programs for Other than State and
Local Government.

40 CFR 40, Research and Demonstration Grants.

CIRCUMSTANCES AFFECTING AUDIT SCOPE AND RESULTS
Due to several circumstances encountered during the audit, our audit results are qualified to the extent that:

CAU provided us all relevant records and information during the audit. We considered CAU to be
uncooperative during the audit process. CAU's responses to our requests for records and information were often
delayed and/or incomplete and many of the records we reviewed were incomplete and/or inaccurate. We issued
a demand letter to CAU in an attempt to obtain full disclosure by CAU. Despite the demand letter, CAU's
response to the draft report alludes to records which they believe we have not seen. Since our audit is complete,
we advised CAU to provide such documentation to the EPA action official for consideration in resolution of the
audit report.

CAU prepared a CEPER equipment inventory listing for our use during the audit, in response to our demand
letter, and with the knowledge that we would review the data. However, the inventory listing did not reconcile
with the claimed equipment costs.

The EPA PO for the first CEPER budget period - October 1991 to September 1993 - was unable to effectively
participate in the audit process. The EPA PO was incapacitated by illness in October 1993. A replacement EPA
PO was named in December 1993.

The audit firm that conducted the audits of CAU under the requirements of OMB Circular A-133 did not
respond to our inquiry concerning details of findings in their reports, depth of audit coverage, and CAU's
corrective actions on their findings. The Department of Education informed us that they were the cognizant
agency for CAU and that they had received CAU's 1993 A-133 audit report on June 15, 1995. We noted that
CAU's 1993 A-133 audit report was dated January 28, 1994, almost 1.5 years earlier.

CAU did not provide sufficient documentation on the executive payroll system through which the VP/R&SP
was paid.

CAU RESPONSE

CAU's response included comments on certain sections of this chapter. Pertinent portions of those comments
are addressed in Chapters 2 through 4. CAU's response indicated that Chapter 1 incorrectly identified the
Department of Education as the A-133 cognizant agency. However, during the audit, we had verified with the
Department of Education that they are currently cognizant for CAU A-133 audits. Education officials indicated
that when cognizance changed from the Department of Health and Human Services to Education, CAU may not
have been officially informed of this change.

                                            CHAPTER 2
                                 CEPER NOT PROPERLY ESTABLISHED

Almost four years after the award of the CA and expenditure of millions of dollars in EPA funds, CAU has not
properly established CEPER as proposed in the CA. CEPER, at the time of our review, had no formal or
physical structure and operated under the complete control of the VP/R&SP. CEPER activities primarily
consisted of a multitude of expenditures with no cohesive organization, direction, and oversight to ensure that
CEPER was properly established, the funds were effectively utilized for CEPER projects, and the goals and
objectives as described in the CA and the 1991 and 1993 CEPER workplans were progressively accomplished.
In addition, the 1991 and 1993 CEPER workplans did not properly establish the scope of work within the
purposes of the CA and the underlying authorizing statute - CERCLA 311(d). Specifically, CAU had not
properly or adequately: (1) designated a Center Director or Fiscal Officer to direct the operations and
expenditures of CEPER; (2) established administrative offices for support of CEPER; (3) established an
advisory board to plan, advise, and monitor CEPER projects; (4) established an external peer review process
and obtained an approved QA plan to ensure the quality and integrity of research projects; (5) ensured that
CEPER projects and activities directly related to hazardous waste policy, education, and research; and (6)
controlled CEPER projects and costs. As a result, CEPER objectives and projects were not properly established
or effectively accomplished. Also, a significant portion of the costs ($3,673,041 of $5,132,757) claimed for the
first two-year budget period were determined unallowable for Federal participation.

According to CAU officials, for the first three years of the project period, funds were primarily used to build
infrastructure for CEPER. Therefore, the establishment of CEPER management and oversight was not given
priority. However, infrastructure development was only one of five major objectives in the 1991 CEPER
workplan. In addition, based on inconsistencies between the 1991 and 1993 CEPER workplans and the
authorizing statute for the CA, we concluded that CAU officials were apparently unaware of or ignored the
scope of the CA and CERCLA 311(d) and, thus, had not ensured that Superfund monies were used only for
authorized purposes.

The 1991 CEPER workplan emphasized the importance of establishing CEPER:

Clark Atlanta University devoted a considerable amount of thought to the development of an organizational
structure for the Center... . The structure had to be such that the Center could operate efficiently and effectively
within the framework of the University.

It identified five major project areas for CEPER: administrative, technical, infrastructure development, research,
and outreach. The administrative project area included how CEPER would be established. It prescribed the
naming of a Center Director, establishing of administrative offices, naming a Fiscal Officer, and establishing an
advisory board.

NO CEPER CENTER DIRECTOR

The CA and the 1991 CEPER workplan implicitly required the designation of a Center Director. However, at
the time of our review, almost four years after initiation of CEPER, CAU had not yet named a Center Director.
The VP/R&SP told us that he acted as the Center Director. However, we concluded that the VP/R&SP did not
have sufficient time to devote to CEPER to be an effective director, as intended in the CA. The VP/R&SP was
actually the CAU Project Director. The VP/R&SP subsequently told us during the audit that he had recently
named a Technical Director for CEPER but this appointment did not satisfy the requirement for a Center
Director as prescribed in the CA and the 1991 CEPER workplan. The Center Director was a crucial component
of CEPER's organizational structure and was necessary for effective administrative, as well as technical
operation of CEPER. As described in this and other chapters in this report, CAU's actions under the CA without
a Center Director were often uncontrolled and ineffective.

Although the CA did not specifically require a Center Director or a minimum level of effort to be provided by a
Center Director, special conditions in the CA clearly implied that a Center Director was needed in order to
perform certain functions/duties. Special Conditions 13 through 18 of the CA required the following:

13. ...The membership [of a steering committee] will be established by the EPA Project Officer and advice from
the Center Director...

14. The Center Director will involve the EPA Project Officer in the development of the requests for projects...

15. The Center Director will directly involve the EPA Project Officer in the activities and proceedings of the
Center's Industrial/Government Advisory Board...

16. The Center Director and the EPA Project Officer will work collaboratively to promote and disseminate
information about the Center...

17. ...The Center Director and EPA Project Officer will coordinate this review...
18. ...Members from academia, industry, state, and Federal governments will be appointed by the Center
Director in consultation with the EPA Project Officer.

The 1991 CEPER workplan also indicated the importance of and need for a Center Director as follows:

The Director will be the ultimate administrative authority in the Center and will be accountable to the EPA for
the conduct and achievements of the Center.

The Director will oversee the Center and insure its effective operation.

The Center Director will be the administrative and technical head and will report to the Vice-President for
Research and Sponsored Programs...

The Center Director shall be an Associate or Full professor and selected through a Selection Committee.

Although the VP/R&SP claimed he was the Center Director during the audit, this claim was not supported by
the 1991 CEPER workplan and the CEPER budget therein.

CAU's budgets identified the VP/R&SP as the CAU Project Director and indicated that the Center Director
position was vacant. Although the first year budget did not indicate any names for either position, both the
second and third year budgets listed the name of the VP/R&SP as the CAU Program Director while the name of
the Center Director was denoted as "TBN" for to-be-named.

The 1991 CEPER workplan suggested that the positions of Center Director and VP/R&SP would be different
and distinct by stating:

The Center Director will be the administrative and technical head and will report to the Vice-President for
Research and Sponsored Programs...

The VP/R&SP had far too many responsibilities to be an effective Center Director. According to the CAU
Operating Procedures Manual, the VP/R&SP:

Coordinates the administration of University centers and institutes. He develops and recommends policies
relative to the establishment, operation, and reporting responsibilities for University centers and institutes,
along with all pre and post grants and contracts administration and support. The Vice-President has the
responsibility for all government and private sponsored research programs conducted by CAU. He works
closely with the Provost, Deans, Directors, and department heads in establishing research policies and
procedures.

In addition, the VP-R&SP served as CAU Project Director for several other projects besides CEPER (see
Appendix 3).

CAU's budgets indicated that the amount of effort actually planned for the VP/R&SP corresponded with the
Program Director position, not the Center Director position. Labor distribution data provided by CAU indicated
that the VP/R&SP charged only 9.375 percent ($9,000 of $96,000) of his annual labor cost to CEPER during
the first two years of operation. The first year budget included charges of $7,200 for the Project Director and
$54,000 for the Center Director. The second year budget included a 10 percent effort commitment or $9,600 in
labor charges for the Project Director and 75 percent or $56,160 in labor charges for the Center Director.
Therefore, we concluded the VP/R&SP's charges represented the Project Director's position.
For competitive centers, ORD's standard solicitation required that Center Directors commit at least 50 percent
of their time to directing the centers.

During the audit, the VP/R&SP named a Technical Director for CEPER, effective January 1, 1995. However,
the VP/R&SP retained all administrative and financial responsibility for CEPER. The effectiveness of
appointing a Technical Director while the VP/R&SP retains administrative responsibility for CEPER was
questionable for the following reasons:

The splitting of the administrative and technical duties of the Center Director position is contrary to the 1991
CEPER workplan which describes the Center Director as the administrative and technical head of CEPER.

The VP/R&SP's previous administrative oversight of CEPER has been questionable (see Chapter 3).

The VP/R&SP had insufficient time to effectively perform the administrative duties of the Center Director.

The named Technical Director also had insufficient time to effectively perform the technical duties of the
Center Director. The Personnel Action Form (PAF) designating the Technical Director did not indicate that he
was the Technical Director for CEPER. Instead, it indicated that he was the Technical Director for CAU's
Research Center for Science and Technology, a 200,000 sq.ft. research facility on the CAU campus. The
VP/R&SP told us that eleven centers are housed in the building. Therefore, we concluded that the Technical
Director was responsible for all eleven centers, not just CEPER under our CA.

NO CEPER ADMINISTRATIVE OFFICES OR FISCAL OFFICER

As of June 1995, CAU had not physically established administrative offices or formally named a Fiscal Officer
for CEPER as required by the 1991 CEPER workplan. The administrative offices and Fiscal Officer were
critical organizational components for proper fiscal and administrative management of CEPER's operations. In
our opinion, CAU's actions under the CA without an administrative office and staff were haphazard,
disorganized, and fiscally inefficient.

The 1991 CEPER workplan indicated that administrative offices would be established for CEPER. However,
we observed that although CAU had set up administrative offices for many other centers in CAU's Research
Center for Science and Technology facility, CAU had not set up an administrative office for CEPER. Since
construction of CAU's Research Center for Science and Technology facility was completed in February 1994,
we believe CAU should have established the CEPER administrative offices by the time of our audit.

CEPER budgets also provided for a CEPER Fiscal Officer; however, a Fiscal Officer had not been designated at
the time of our audit. The budgets indicated the position would be full-time.

NO CEPER ADVISORY BOARD

CAU did not utilize an advisory board to plan, guide, and monitor CEPER projects. Both the special conditions
in the CA and the 1991 CEPER workplan called for the establishment of an advisory board. However, as of
June 1995, almost four years after initiation of CEPER, the VP/R&SP indicated that no advisory board, as
required in the 1991 CEPER workplan, had been established. Without an advisory board there was no
monitoring and functioning control over CEPER long-term planning, proposed projects, operational guidance,
or any related decisions of the VP/R&SP.

The CA's special conditions implied there would be an advisory board by requiring:
The Center Director will directly involve the EPA Project Officer in the activities and proceedings of the
Center's Industrial/Governmental Advisory Board to enable the EPA Project Officer to effectively contribute to
the development of a viable Center.

The 1991 CEPER workplan was much more specific about the advisory board:

The primary role of the Industrial/Governmental Advisory Board (IGAB) is to advise and recommend to the
Director on matters of Center operations, policy, and research. It will provide advice for the long-term
guidance of the Center. The Board will be the forum through which the ideas, goals and requirements of the
government and industrial participants are expressed and coordinated. Its membership and responsibilities,
noted below, are designed to achieve these ends.

Members:

- U.S. Environmental Protection Agency, one representative.

- Industry, one representative per participating firm, one vote per member.

- Other governmental, one representative for each participating organization.

- Additional Observers, as invited by the Board, non-voting.

Responsibilities of Board

- Review programs proposed for the Center activities and make recommendations to the Vice-President for
Research and Sponsored Programs and the Center director for final approval.

- Review operating and research budgets.

- Make recommendations on Center policy governing direction content and utility of the research, interaction
procedures among participants, sponsors, patent and publication policies, and other foundation affairs,
consistent with the policies of the University.

The 1991 CEPER workplan further states that the other Federal agencies represented on the advisory board will
be include DOD, DOE, and HHS (footnote 2). Also, industrial membership will come from waste management
and chemical industries and professional societies.

When we asked the VP/R&SP about the advisory board, he responded in writing that the "Science Research
Advisory Board" had been inactive until this year (1995) because CEPER emphasis had been on infrastructure.
The VP/R&SP's written response included the following statements related to the Science Research Advisory
Board:

This Committee has been inactive since the emphasis of the CEPER Center until this year has been on
infrastructure development. However, some members of this Committee have visited the Center periodically in
the past three years for informal discussion to review the development of the research, education, and outreach
programs of the Center. The current list of members is attached. The committee will meet in July [1995] to
review the Center's programs.

Member

[*] - SAIC, Inc. - remediation technologies
[*] - Second Nature - environmental policy, education, and pollution prevention

[*] - Florida International University - remediation technologies

[*] - Southern University - analytical techniques

[*] - University of Cincinnati - environmental policy and education policy

[*] - Army Environmental Policy Institute - environmental policy and bioremediation

[*] - Bechtel Environmental Inc. - remediation technologies

[*] - Georgia Tech - bioremediation and air quality

[*] - New Jersey Institute of Technology - pollution prevention

* Name deleted.

However, the board described by the VP/R&SP did not include an EPA representative, other Federal agency
representatives, or representatives from waste management/chemical industries and professional societies. Also,
the "Science Research Advisory Board" did not conform to the committee structure provided for in the 1991
CEPER workplan. Additionally, our audit disclosed no documentation in CAU's records, such as a charter,
membership appointments, and minutes of meetings that indicated the existence of an advisory board. Further,
there was no documentation that any CEPER projects had been reviewed or monitored by any advisory board.
As of September 1993 (the end of the first budget period), we were able to reconstruct project costs and
determine that over $1.5 million had been charged to the CA for 23 research, education, and outreach projects.
None of the projects had been reviewed, recommended for funding, or monitored by an advisory board as
intended in Special Condition No. 15 of the CA and the 1991 CEPER workplan.

Based on our review of CAU's records and comments by the VP/R&SP, we concluded that:

CAU never established an advisory board nor has the advisory board ever operated as provided for in the CA
and the 1991 CEPER workplan.

The structure and membership of CAU's Science Research Advisory Board does not conform to the
requirements of the advisory board described in the CA and the 1991 CEPER workplan. The board does not
include the required Federal representation or any substantial representation of waste management or chemical
companies.

NO CEPER EXTERNAL PEER REVIEW PROCESS

CAU did not establish an external peer review process to ensure that CEPER projects funded under the CA
were sound, relevant, of value, and cost effective. CA Special Condition No. 18 required CAU to establish an
external peer review process for all policy, education, and research projects. The peer review process was to
include members from academia, industry, state and Federal governments.

Our review disclosed several CEPER projects that may be of questionable value or outside the scope of the CA
(see Chapter 3). The advisory board and the external review peer review process were the controls to ensure that
all projects were properly planned, relevant, and cost-effective.
The VP/R&SP admitted that an external peer review process had not been established for proposed CEPER
projects. However, he indicated that he encourages PIs to obtain informal reviews of their work from peers at
EPA laboratories. No documentation of project peer reviews from EPA laboratories was found during the audit.

NO APPROVED QUALITY ASSURANCE PLAN

EPA Order 5360.1 requires EPA to assure implementation of quality assurance for all contracts and financial
assistance involving environmentally related measurements. This would be accomplished through approved QA
plans and QA audits. The purpose of a QA plan is to provide the EPA assurance as to the quality and accuracy
of the results of environmental studies and research funded by the Agency.

Special Condition No. 11 of the CA required that an acceptable QA plan be submitted to the EPA PO within 90
days of the acceptance of the CA, September 30, 1991. At the time of our audit, almost four years after
acceptance of the CA, CAU had not submitted a QA plan to EPA. On July 27, 1993, CAU did submit to the
EPA PO a statement on CAU quality assurance. However, this statement indicated a detailed QA plan was still
under development. Special Condition No. 11 further states that no work involving environmental
measurements or data generation under this project shall be initiated until the EPA Quality Assurance Officer
has approved CAU's QA plan. However, CAU has been conducting environmental research and data generation
under the CA since the award in September 1991, without an approved QA plan. We identified 28 projects
included in CAU's 1991 and 1993 workplans. Many of these projects involve environmental measurements (air,
water quality, etc.) and data generation. Without an acceptable QA plan, EPA has no assurance that the results
of these projects are reliable, accurate, and therefore useful products. As a result, the hundreds of thousands of
dollars expended for these projects thus far may have been wasted.

PROJECTS INCONSISTENT WITH AUTHORIZING STATUTE

EPA funded CEPER under CERCLA 311(d). CERCLA 311(d) authorizes grants to institutions of higher
learning to establish hazardous substance research centers for the purpose of conducting research and training
related to the manufacture, use, transportation, disposal, and management of hazardous substances and
publication and dissemination of the results of this research. An amendment to CERCLA by the Superfund
Amendment and Reauthorization Act (SARA) 209(a) added the authority for research related to hazardous
waste site assessment, technology evaluation, and development of alternative treatment technologies.

Our review of the 1991 and 1993 CEPER workplans disclosed many projects that appeared to be outside the
scope of the CA and CERCLA 311(d). For instance, the CEPER mission statement in the 1991 CEPER
workplan properly indicated that one of CEPER's objectives related to hazardous waste management; however,
the mission statement also included solid waste management [particularly municipal/industrial waste which is
regulated under the Resource Conservation and Recovery Act (RCRA) not CERCLA] and environmental health
research. Environmental health research grants are authorized under CERCLA 311(c) but require coordination
with the Department of Health and Human Services (HHS) to preclude duplication of effort. There was no
documentation of any coordination with HHS prior to award of this CA.

The 1991 CEPER workplan also provided for Program Assistants within CEPER for organizing and managing
research. This included Program Assistants for water quality and air quality and research projects related to
atmospheric toxics, indoor air, health effects from air toxics, and ecological effects from global warming; all of
which appear outside the scope of the CA and CERCLA 311(d). CEPER projects related to Clean Air and Clean
Water statutes were also included in the 1991 CEPER workplan. Finally, the 1991 CEPER workplan included
many general environmental education and outreach activities and a project - development of economic policies
to promote sustainable use of natural resources for environmental quality in third world countries - which we
concluded were also outside the scope of the CA and CERCLA 311(d).
The 1993 CEPER workplan continued to include those projects we concluded were outside the scope of the CA
and CERCLA 311(d). The 1993 CEPER workplan also added projects related to an Earth Sciences Center
(atmospheric/meteorological research), an Aerosol Sciences Program, a large student stipends (financial aid and
work study) program (over $500,000), and promotion of minority environmental businesses. All of these
projects appeared outside the scope of the CA and CERCLA 311(d).

In conclusion, it was evident that CAU misunderstood or ignored the scope of the CA and CERCLA 311(d) and
that EPA had not educated CAU officials as to the proper scope for CEPER and the associated problems with
the 1991 and 1993 CEPER workplans. This condition was a primary cause of the 12 projects questioned in
Chapter 3 as being outside the scope of the CA and the related questioned costs included in Chapter 4 and
Exhibit A. In our opinion, the use of the Superfund appropriation to fund projects totally unrelated to Superfund
could constitute a violation of Federal appropriation law.

ACCOMPLISHMENTS DIFFICULT TO DETERMINE

Because CAU did not maintain files for each project or activity funded under the CA, it was difficult to assess
whether projects were completed, partially completed, in process, or never started. The VP/R&SP indicated that
it takes about five years before a research project produces any peer reviewed publications. Based on our review
of the project progress reports in the 1993 CEPER workplan, none of the projects described in the 1991 CEPER
workplan had been completed.

Administrative and Technical Projects for CEPER

We noted seven deliverables in the 1991 CEPER workplan that related to CEPER administrative, technical, or
educational projects. None of the deliverables were mentioned in the CEPER progress descriptions contained in
the 1993 CEPER workplan. Therefore, we concluded that these deliverables, as listed below, had not been
accomplished and that all of these deliverables should have been accomplished within a year after establishment
of CEPER.

Administrative Deliverables in Accomplished per the 1991 CEPER Workplan the 1993 Workplan

(footnote 3)

Program Management System & No

Financial Management Data System

Quality Assurance Management Plan No

Advisory Board No

CEPER Administrative Offices No

Process for Reporting to EPA PO No

Technical/Educational Projects Accomplished per in the 1991 Workplan the 1993 Workplan

Multidisciplinary Environmental Developed but not implemented.

Curriculum
Information/Data Systems to Developed but not implemented.

Support CAU Research Center

The CAU VP/R&SP told us that the multidisciplinary environmental curriculum had been developed and
implemented. He said the curriculum was available to instructors for integration into regular curriculum courses
in science and engineering. However, he could not document implementation of the curriculum because use of
the curriculum was voluntary. There were no environmental specific courses developed. We asked the
VP/R&SP if he could document implementation of the curriculum through environmental degree programs
established. He said no such degree programs existed. However, the 1993 workplan shows that an
undergraduate minor and masters and doctorates in environmental science were to be established under the
curriculum program. The plan also showed specific environmental courses such as Environmental Biology I and
II were to be added to CAU's science curriculum.

CEPER Project

A comparison of the 1991 CEPER workplan to the 1993 CEPER workplan disclosed that CAU did not report
the progress of some projects proposed in the 1991 CEPER workplan in the 1993 CEPER workplan and that the
1993 CEPER workplan contained progress reports on some new projects that were not proposed in the 1991
CEPER workplan.

                                     Progress Not Reported for 11 Projects

The progress of only 4 of 15 projects proposed in the 1991 CEPER workplan was reported by CAU in the 1993
CEPER workplan. The 1993 CEPER workplan contained no progress reports for the other 11 projects. EPA
regulations (40 CFR 160-1) required that CAU present in the 1993 CEPER workplan a summary of all CEPER
progress made to date. Since CAU did not prepare quarterly progress reports on CEPER and CAU did not
maintain individual project accounts, we had little information with which to measure progress.

The table below lists the 11 projects, the project costs for the first CEPER budget period, and CAU's unaudited
comment on the current status of the project.

Projects In The 1991 CEPER Workplan That Did Not Have Any Progress Reported In                      Costs*
The 1993 CEPER Workplan (with CAU's unaudited comment on project status shown)                    (10/01/91 to
                                                                                                   09/30/93)
CEPER Project No. 1: The Emission of Mercury into the Atmosphere.                               $0
[CAU comment: Project not implemented because PI left CAU.]
CEPER Project No. 2: Rearrangement of Epoxidyl Free Radicals.                                   $9,740
[CAU comment: A project report is now available.]
CEPER Project No. 3: Mechanisms of Salt Tolerance in Halophytic & Glycophtic Plants.            $29,100
[CAU comment: PI encountered difficulties due to lack of appropriate facilities.]
CEPER Project No. 4: Airborne Microorganisms as Continuous Indoor Air Pollutants in             $0
Buildings.
[CAU comment: Project not implemented because PI left CAU.]
CEPER Project No. 6: Economic Consequences of Subtitle D.                                       $17,252
[CAU comment: A project report is now available.]
CEPER Project No. 7: Decomposition of Organophosphorus Compounds over Alumina-                  $45,768
Supported Catalysts.
[CAU comment: A project report is now available.]
CEPER Project No. 9: Internalizing the Health Risk of Hazardous Waste into the Cost-Benefit $24,575
Analysis of Hazardous Waste Sites.
[CAU comment: PI encountered difficulties in obtaining access to data.]
CEPER Project No. 10: The Neutoxic Potentials of the Environmental Pyridines: Relevance to $0
Parkinson's Disease.
[CAU comment: A substitute project - CEPER Project No. 20 - was implemented.]
CEPER Project No. 11: Molecular Cloning & Characterization of the Metallothionein Gene           $48,349
from Cyanobacteria.
[CAU comment: PI was terminated.]
CEPER Project No. 12: Decontamination of Heavy Metal-Polluted Wastewater by Solvent              $40,685
Extraction.
[CAU comment: A project report is now available.]
CEPER Project No. 14: Determination of Biochemical Effects Produced by the Simultaneous          $96,192
Exposure of Human Cells to Multiple Environmental Pollutants.
[CAU comment: A project report is now available.]
                                           TOTAL                                                 $311,661

*CAU did not maintain costs by project. However, we were able to relate certain costs to certain projects

                                    Five Projects In 1991 CEPER Workplan

The 1993 CEPER workplan contained both progress reports and proposals for five projects that were not
proposed by CAU in the 1991 CEPER workplan (see CEPER Projects No. 18, 19, 20, 23, and 24 in table
below). CAU initiated these projects before proposing them to EPA. Although CAU did not maintain project
costs, our reconstruction of costs show that $497,451 was spent on these unapproved projects during the first
CEPER budget period.

Based on the progress reports in the 1993 CEPER workplan, four of these unapproved projects were started on
or before September 30, 1991, the beginning of the first budget period under the CA (see CEPER Projects No.
18, 19, 20 ,and 24 in table below). Therefore, these four projects had been in progress for almost two years
when EPA received the proposals for the projects.

The table below lists the five projects, the project costs for the first CEPER budget period, and CAU's unaudited
comment on the project.

Projects With Progress Reports In The 1993 CEPER Workplan Which Were Not                         Costs*
Proposed In The 1991 CEPER Workplan.                                                             (10/01/91-
                                                                                                 09/30/93)
CEPER Project No. 18: Aerosal Sciences.                                                          $98,430
[CAU comment: This curriculum and human resources project was included to indicate
progress in faculty development.]
CEPER Project No. 19: Toward the Development of a Comprehensive Academic, Research, & $120,441
Outreach Program in Earth System Sciences: (a)Evaluate & Develop Techniques for
Collecting & Using Vegatative Emissivities for Environmental Remote Sensing Applications;
(b) Fidelity of Satellite Interferences of Transport from the Troposphere to the Stratosphere; (c)
Project TEAM (Teaching Educators about Meteorology); (d) Project Skymath; and (e)
Futurescape.
[CAU comment: This curriculum and human resources project was included to indicate
progress in faculty development.]
CEPER Project No. 20: Exposure Modeling of Biological Tissue to Electromagnetic Radiation. $59,848
[CAU comment: This project was a substitute for CEPER Project No. 10.)
CEPER Project No. 23: Environmentally Hazardous Metals-DNA Interactions; Metal                       $139,011
Sequestering Polymers.
[CAU comment: none.]
CEPER Project No. 24: (a) An Investigation of Airborne Lead Exposures for Sections of the            $79,721
Atlanta Metropolitan Area; (b) Decision Tool for Assessing Risk to Low-Level Lead
Pollutants.
[CAU comment: This project was initiated as a case study for the Environmental Equity
Conference.]
                                            TOTAL                                                    $497,451

* CAU did not maintain costs by project. However, we were able to relate certain costs to certain projects.

Special Condition 14 required the CEPER Center Director to involve the EPA PO "...in the development of the
request for projects, review of the individual projects and approval of projects for funding." CAU had not
involved the EPA PO in either the development or approval of the five projects listed above before they were
funded and implemented.

RECOMMENDATIONS

We recommend that the Director, Grants Administration Division, Office of Grants and Debarment:

2-1 Suspend further awards under the CA until the EPA-ORD certifies that CAU has properly named a Center
Director, established administrative offices, named a Fiscal Officer; established a proper operational advisory
board and peer review process for CEPER; and submitted an acceptable QA plan.

We further recommend that the Director, National Center for Environmental Research and Quality Assurance,
Office of Research and Development:

2-2 Assist CAU in their efforts to properly implement CEPER as proposed in the CA and the 1991 CEPER
workplan to include appointment of a Center Director and a Fiscal Officer and establishment of administrative
offices and a proper advisory board for CEPER.

2-3 Instruct CAU to cease all work on projects involving environmental measurements and/or data generation
until an approved QA plan is obtained from EPA.

2-4 Upon completion of actions related to recommendation 2-2, certify to GAD that all actions required to
properly establish CEPER have been taken by CAU and ORD.

2-5 Educate CAU officials as to the scope of the CA and CERCLA 311(d) and ensure that CEPER workplans
and projects are revised to reflect this scope.
2-6 Instruct CAU to maintain files for each CEPER project so that projects dropped, projects implemented, and
project progress and accomplishments can be readily identified and tracked.

2-7 Require final reports or explanations for the eight research projects included in the 1991 workplan which
were implemented but for which there were no progress reports or further work proposed in the 1993 CEPER
workplan.

(The CAU response to the draft report contained some of this information.)

2-8 Require CAU to submit new projects for approval prior to implementation and funding. If a substantial
number of projects are changed or dropped, require CAU to submit a revised CEPER workplan.

CAU RESPONSE

CAU disagreed with the findings in this chapter but agreed with all of the recommendations except for
Recommendation 2-3 which was not included in the draft report.

CAU disagreed that CEPER had not been formally or physically established. CAU stated they had established
one of the largest bases for environmental research, education, and policy among higher education institutions
in the country.

CAU asserted that their implementation of CEPER was in accordance with their original proposal and they had
implemented CEPER in good faith that EPA had approved its 1991 CEPER workplan. CAU maintained that
CEPER had made significant progress towards a sustainable multi-disciplinary environmental research,
education, and policy analysis center that meets EPA's Superfund needs. CAU also maintained that the
infrastructure foundation for a sustainable center has been overwhelmingly achieved. CAU indicated that
nobody ever questions the need for infrastructure development at majority institutions. CAU stated that EPA
officials understood and approved of CEPER's focus on infrastructure development.

CAU indicated that their purpose for seeking and obtaining a congressional earmark for CEPER was to develop
environmental research, education, and policy analysis programs to be housed in CAU's newly constructed
Research Center for Science and Technology facility. CAU stated that the $29 million, 200,000 sq.ft. facility
was constructed principally for environmental research, education, and policy analysis. CAU maintained that
many of the centers in that facility are devoted to specific themes under CEPER while other centers and
laboratories in the building are devoted entirely to subcategory activities of CEPER. CAU indicated that the
only activities in the building not related to CEPER and with faculty not participating in CEPER pertain to the
NSF-funded theoretical physics and computational sciences center. CAU stated that all of the faculty involved
with the HiPPAC, SEAS, and CREST centers are also PIs for CEPER. Also, the Environmental Justice
Resource Center and the ViSiDEL laboratory were established under CEPER. CAU indicated that several other
buildings currently house CEPER faculty/staff including Sage-Bacote Hall, McPheeters-Dennis Hall, Clement
Hall, 82 Peidmont, Haven-Warren Hall, and Trevor-Arnett Hall. CAU plans to add a 25,000 sq.ft. annex to the
Research Center building to support projects under CEPER and to concentrate CEPER on fewer projects as
opposed to the current situation where the goal was to involve as many PIs as possible pursuant to the holistic
approach of CEPER.

CAU indicated other Hazardous Substance Research Centers performed projects similar to those projects the
OIG determined to be outside the scope of the authorizing statutes. CAU indicated that the only difference
between CEPER and EPA's five competitively-awarded Hazardous Substance Research Centers was that
CEPER is comprehensive and encompasses several projects in the areas of research, education, policy analysis,
technology transfer, and outreach.
CAU considered the VP/R&SP to be the most qualified and effective person to serve as Center Director due to
the emphasis on infrastructure development. CAU noted that the VP/R&SP was also the CEPER Program
Director, a professor of chemistry, and an active researcher and scientist. CAU plans to have the faculty
member, who was appointed as the CEPER Technical Director on January 1, 1995, assume the full
responsibilities of Center Director effective October 1, 1995, with EPA PO approval.

CAU indicated that since the VP/R&SP functioned as the Center Director, the VP/R&SP's administrative
offices were actually project offices and that the project staff for CEPER were physically located in the office
suite of the VP/R&SP.

CAU indicated that the advisory board was not chartered due to the emphasis on infrastructure and that CAU
had not yet inaugurated the advisory board.

OIG EVALUATION OF CAU COMMENTS

The appropriation language of the 1991 and 1992 earmarks provided funding for "Superfund research" while
the language for the 1993 and 1994 earmarks provided funding for a "Hazardous Substance Research Center" at
CAU. There was nothing in the appropriation language that indicated approximately four-years of funding
would be devoted to establishing an infrastructure before research was conducted. Also, there was nothing in
the appropriation language that would authorize expenditures for expenses that were not directly related to
Superfund and Hazardous Waste research. Additionally, there was nothing to indicate that the funded research
was dependent upon or related to other Federally funded projects such as the research building funded by DOE
and research conducted by the HiPPAC, SEAS, CREST and other centers which were funded by other Federal
agencies.

Neither the CA nor the 1991 CEPER workplan indicated that CEPER was intended to be CAU's Research
Center for Science and Technology building or a conglomeration of other CAU centers in and around this
facility. The array of centers, laboratories, faculty, staff, and students that benefitted from CA funds was
indicative of CAU's uncontrolled use of these monies and the absence of a properly established and functioning
CEPER. Many of these other centers conducted projects unrelated to Superfund hazardous waste research and
training and could not be legitimately funded and supported under CEPER.

Therefore, we found no other basis to evaluate CAU's progress except the appropriation language related to
Superfund and Hazardous Substance Research, the authorizing statute (CERCLA 311(d)), and the related
requirements of the CA and workplans. As such, after four years, we found that CAU had made very little
progress in implementing CEPER other than establishing the infrastructure. Additionally, we do not believe that
CAU's failure to implement several critical components of CEPER should have been dependent on completing
this infrastructure. Specifically, CAU should have named a Center Director and Fiscal Officer; obtained an
approved QA plan; and established an advisory board, external peer review process, individual project budgets,
and separate administrative offices. If CAU had implemented these critical components when the CA was
initially awarded, many of the conditions and questionable projects and activities cited in this chapter may have
been avoided.

                                         CHAPTER 3
                             COOPERATIVE AGREEMENT MISMANAGED

CAU substantially mismanaged the CA both financially and administratively. CAU top management
circumvented University internal controls and requirements related to CEPER procurements, contracts, and
disbursements. Also, CAU management disregarded many of the special conditions, EPA regulations, and
objectives of the CA and CEPER workplans related to CEPER oversight and monitoring. CAU's noncompliance
with special conditions and regulations related to progress reports, timely FSR submission, and EPA PO
involvement in project development/approval and advisory board meetings precluded effective EPA oversight
of CEPER. These deficiencies represented serious weaknesses in CAU's controls over CEPER related actions
and costs charged to the CA.

The VP/R&SP, as CEPER Project Manager, was responsible for establishing and maintaining an adequate
internal control structure and for ensuring compliance with all terms of the CA and applicable laws and
regulations. However, our audit disclosed that the VP/R&SP did not properly establish CEPER as previously
discussed in Chapter 2, bypassed internal controls over costs incurred and related disbursements, arbitrarily
charged unrelated costs to CEPER, transferred costs to CEPER from other projects and accounts without
adequate justification, and procured unrelated services and equipment sole source without justification. The
VP/R&SP also did not adequately report the progress of CEPER to EPA through quarterly and annual reports as
required by the CA, CEPER workplans, and EPA regulations. Further, the VP/R&SP did not adequately budget
or track the costs for individual projects conducted under the CA. Instead, the VP/R&SP simply used one
master budget and one master set of accounts to plan, record, manage, and report the costs for all of the projects
conducted with CA funds.

The VP/R&SP, as CEPER Project Manager, was also required to conduct operations in accordance with CAU
policies and procedures and to maintain adequate controls over assistance projects and funds [40 CFR Part 30].
CAU's Administrative Policy states:

[The Vice-President has] ...the primary responsibility for conducting the sponsored project in accordance with
award terms and conditions and within the funds allocated for such effort.

[The Vice-President has] ...the responsibility for assuring all sponsored research and training conducted within
their jurisdiction is consistent with University policy and the available funds.

According to CAU's Operations Procedures Manual, the VP/R&SP was only accountable to CAU's President:

The Office of Research and Sponsored Programs is headed by the Vice-President for Research and Sponsored
Programs who reports directly to the President of the University.

QUESTIONABLE ACTIONS AND COSTS

The VP/R&SP's (CEPER Project Manager) actions related to the CA frequently usurped CAU's operating
policies, procedures, and related internal controls and the CA's terms and conditions. The VP/R&SP maintained
control over CA funds and identified or approved the charging of almost all costs associated with the CA. Some
of the controls bypassed by the VP/R&SP included receipts/invoices to support disbursements, travel receipts to
support travel charges, support for relationship or proration of charges to CA, competitive procurement
requirements, etc.. Specific control weaknesses and associated questioned costs are further described in Chapter
4 and Appendix A. These inappropriate actions by the VP/R&SP went unquestioned by his subordinates and his
supervisor.

Arbitrarily Charged Unrelated Costs

The VP/R&SP arbitrarily charged about $1,516,858 of unrelated costs to the CA. The VP/R&SP characterized
his actions as the splitting of costs to projects whose scopes permitted the charges. The VP/R&SP also claimed
to be leveraging CA funds with other federal support in order that CAU could accomplish more. We considered
the charges to be unallowable and indicative of serious control problems at CAU since the VP/R&SP had
authority to control costs charged to all sponsored projects at CAU. Some of the charges made to CEPER
related to other Federally-funded projects. Examples of categories and types of unrelated costs charged to
CEPER are presented below.(footnote 4)

                                 Personnel, Consultants, Professional Services,
                                           Subcontracts, and Stipends

$761,794 of unrelated personnel, consultant, professional service, subcontract, and stipend costs were charged
to the CA by the VP/R&SP. These questionable charges which were questioned for being outside the scope of
the CA included:

   •   $274,113 of personnel costs that were related to projects that we concluded were unrelated to CEPER or
       related to other sponsored projects [see the list of projects on page 32 of this chapter and Exhibit A, Note
       2(D)].

   •   $302,546 of student stipends that had no documented relationship to CEPER [see Exhibit A, Note
       10(A)].

   •   $190,882 of subcontract costs for work that related to another Federally-funded project [see Exhibit A,
       Note 9(A)].

   •   $53,900 of consultant and professional services costs that did not relate to CEPER [see Exhibit A, Notes
       4(A)&5].

                                                 Travel Costs
$139,229 of unrelated travel costs were charged to the CA. These questionable charges included:

   •   $101,329 of conference costs. The VP/R&SP charged 100 percent of the hotel rooms and about 50
       percent of food charges for a conference hosted by the Historically Black Colleges and
       Universities/Minority Institutions (HBCU/MI) Consortium [see Exhibit A, Note 6(A)(1)]. $12,392 of the
       food charges represented unallowable entertainment costs.

   •   $37,051 of travel costs related to other Federally-funded projects [see Exhibit A, Notes 6(A)(2)-(10) &
       (12)-(21)].
   •   $849 of travel to conduct job interviews unrelated to the CA or CEPER [see Exhibit A, Note 6(A)(11)].

                                    Equipment, Vehicles, Supplies, and Rent

$446,786 of unrelated equipment (footnote 5), supplies, and rent charged to the CA. We questioned costs
charged to the CA for those equipment items that we determined, based on the available source documentation
and our own physical inventory, were for purposes other than the CA. Also, other types of equipment, supplies,
and rent expenditures were quetionable. The questionable charges by the VP/R&SP included:

   •   $244,147 of equipment that was associated with other projects or sponsors, was used for non-Superfund
       purposes, was used for projects not included in the 1991 or 1993 CEPER workplans, or was assigned to
       personnel who did not charge personnel costs to CEPER [see Exhibit A, Notes 8(B)(2-14)].

   •   $109,788 for a mini-bus, shuttle bus, motor home, and van that were not directly related to the CA.
   •   $79,500 of unrelated rent charged to the CA as other direct costs. These charges included $37,500 for
       rental of a building used for other projects and $42,000 for the purchase of two mobile offices (mobile
       homes) that were incorrectly charged as rent [see Exhibit A, Notes 11(A)(1) & (2)].
   •   $13,351 of supplies that were unrelated to the CA [see Exhibit A, Note 7(A)].

                                                Recipient Share
$169,049 of unrelated costs claimed as recipient share. CAU was required to provide an 11 percent cost
matching under the CA (see Chapter 4). These unrelated costs represented in-kind contributions that did not
meet the requirements of OMB Circular A-21 or CAU policy for cost matching. These claimed costs related to
equipment that CAU received from Georgia State University (GSU) that was bought with funds from the
Georgia Research Alliance (GRA) which is funded by the Georgia Lottery. This equipment was used on GRA
projects and not on projects under our CA.

Transferred Costs Without Adequate Justification

The VP/R&SP transferred $581,594 of costs from other projects and accounts to the CA without adequate
justification. The questionable transfers by the VP/R&SP included:

   •   $319,819 of equipment costs transferred from projects funded by the U.S. Army and NASA to the CA
       [see Exhibit A, Note 8(A)]. The VP/R&SP charged these costs to the other projects and later transferred
       the costs to the CA.

   •   $258,692 of personnel costs for eight faculty members that were transferred from CAU's unrestricted
       budget accounts to the CA [see Exhibit A, Note 2(B)]. The VP/R&SP made the transfer about a year
       after the work had been completed. There was no documentation that these employees worked on
       CEPER projects.
   •   $3,083 of other direct costs for a video that the VP/R&SP originally charged to a U.S. Army project and
       then later transferred to the CA [see Exhibit A, Note 11(A)(4)]. There was no documentation of how the
       video, titled "Racing to Save the Planet," related to the CA.

NONCOMPLIANCE WITH CONDITIONS AND REGULATIONS

CAU did not comply with critical special conditions contained in the CA and EPA regulations applicable to the
CA. The original CA contained 18 special conditions. We determined that CAU did not comply with seven of
the most significant CA conditions. Many of these CA conditions were to ensure proper internal and external
monitoring and oversight of CEPER operations and effective use of EPA funds. However, the required
operational controls were never properly implemented. CAU's noncompliance with special conditions,
regulations and policies hampered EPA's ability to effectively oversee CAU's performance under the CA and
ensure that EPA funds were properly used.

The VP/R&SP, as CEPER Project Manager, was responsible for ensuring that CAU complied with all terms,
conditions, laws, regulations, and policies pertaining to the CA.

CEPER, Advisory Board, External Peer Review Process, and QA Plan Not Established

As reported in Chapter 2, CAU did not properly establish CEPER and related advisory board (Special Condition
15), external peer review process (Special Condition 18), and QA plan (Special Condition 11) as required by the
CA and the CEPER workplans. The VP/R&SP, as CEPER Project Manager, was responsible for the
implementation of CEPER and the related external and internal oversight processes.

Inadequate Reporting of Progress

The VP/R&SP did not adequately report CEPER progress and actions taken with CA funds to EPA. The CA,
1991 CEPER workplan, and EPA regulations all contained quarterly or annual progress reporting requirements
that CAU did not meet. Progress reports were critical for effective EPA oversight of the CA and CAU
performance under the CA. Special Condition No. 9 of the CA indicated:
The recipient agrees to submit quarterly progress reports to the EPA Project Officer. These reports will include
brief statements covering work status, work progress, preliminary data results and evaluation made during the
reporting period. It will address difficulties encountered, remedial actions taken, and a statement of activity
anticipated during the subsequent reporting period, including a description of equipment, techniques, and
materials to be used or evaluated. The report will include any changes of key personnel concerned with the
project and a brief discussion of expenditures.

A similar requirement is contained in EPA regulations (40 CFR 40.160).

The 1991 CEPER workplan also indicated that research results and publications would be made available to the
EPA PO through quarterly and annual reports.

The VP/R&SP provided the following written comment on his reporting of progress to EPA:

I discussed with the EPA Project Officer on several occasions when we talked on the phone the fact that the
major focus of the CEPER Center on infrastructure development during the first two to three years made it
difficult for me to prepare the quarterly technical report. Therefore, only annual progress reports were
prepared as part of the submission of continuation proposals. I do not recall requesting in writing a waiver nor
was a written waiver received from the EPA Project Officer, [name deleted]. The annual reports contained the
required details.

However, we determined that:

   •   The EPA PO's files did not contain any quarterly or annual progress reports for CEPER.

   •   The quarterly progress report required by the CA was more than just a technical report as suggested by
       the VP/R&SP. Special Condition 9 required that progress reports also include a statement of activity
       anticipated during subsequent reporting periods, including a list of equipment, techniques, and materials
       to be used or evaluated, and any changes of key personnel and a brief discussion of expenditures.
   •   The CA was never modified to waive the reporting requirement nor did the EPA PO's file indicate that
       CAU would not submit the reports.
   •   CAU did not submit an annual progress report as part of obtaining the second year funding ($2.5 million
       earmark) for CEPER. The VP/R&SP only submitted a budget and told EPA that a revised CEPER
       workplan would be submitted. However, the VP/R&SP did not submit the revised CEPER workplan.
   •   CAU did report progress on the first two years of CEPER in the 1993 CEPER workplan which covered
       the third and fourth years of CEPER.
   •   The 1991 CEPER workplan did not indicate that infrastructure development was the primary focus of
       CEPER. CEPER included administrative, technical, infrastructure development, research, and outreach
       projects.

Therefore, we concluded that CAU did not meet the quarterly and annual progress reporting requirements and
that infrastructure development was not sufficient justification for not reporting progress to EPA.

Sole Source Procurements/Contracts

The VP/R&SP approved and charged many unjustified, sole source procurements to the CA. In fact, none of the
procurements reviewed had any documentation of bids, price quotations, or rates being obtained from more than
one source or any other evidence of competition. 40 CFR 33.230(a) requires the recipient to conduct
procurement transactions in a manner that provides maximum open and free competition. CAU's procurement
policies also required competitive procurements; however, the VP/R&SP did not comply with these policies in
approving procurements under the CA. Therefore, there was no assurance that EPA funds were effectively used
to acquire the best goods and services at the least cost.
In our sample of costs claimed, we identified over $1.8 million in noncompetitive purchases of equipment,
consulting services, subcontracts, and vehicles. Some of these noncompetitive procurements were determined to
be unrelated to the CA and, therefore, questionable use of CA funds. Details of these questionable
noncompetitive procurements are presented in Exhibit A of this report.

For instance, CAU noncompetitively procured 4 used vehicles and charged the total cost of these vehicles to the
CA. We determined that the use of the vehicles was not directly related to our CA and CEPER

                                 NONCOMPETITIVE PROCUREMENTS
                                  Vehicles Improperly Charged to CEPER
                           Purchase
 Vehicle       Vendor                     Cost                             Observations
                             Date
             Metrotrans                              Purchase Requisition showed vehicle purchased for
Mini-Bus                   11/20/91   $49,100.00
             Corp.                                   Research Center for Science and Technology, not CEPER.
                                                     Purchase Requisition showed vehicle purchased for the
Motor        Family RV                               DOE/URI project, not CEPER. Vehicle for study of air
                           12/07/93   $12,500.00
Home         Center                                  masses and wind turbulence. Air monitoring equipment
                                                     not installed on vehicle as of February 1995.
Shuttle      Metrotrans                              Purchase Requisition showed vehicle purchased for
                           01/25/94   $29,000.00
Bus          Corp.                                   Research Center for Science and Technology.
Passenger    Spaulding                               Purchase Requisition showed vehicle purchased for
                           08/30/94   $19,188.00
Van          Ford                                    Research Center for Science and Technology.
Total Cost                            $109,788.00
a Vehicles purchased after September 1993 were outside the scope of our financial audit. Therefore, these
charges are not included in the questioned costs presented in Exhibit A.
b The Research Center for Science and Technology is a $29 million 200,000 sq.ft. facility at CAU which houses
several centers.

CAU did not have records which showed that these vehicles were used exclusively by CEPER.

During the audit, the VP/R&SP provided a written response regarding the vehicle procurements which indicated
that the CAU Director of Transportation had visited several vendors before making a recommendation to him
and that several bids were reviewed before a decision was made. The Transportation Director did not provide
any documentation confirming that competitive bids were obtained.

Other Significant Noncompliance with CA Terms, EPA Regulations, and OMB Requirements

CAU noncomplied with special conditions and EPA regulations related to control, accountability, and oversight
for CEPER projects and costs claimed under the CA. Noncompliance with Special Conditions 9, 11, 15, and 18
related to progress reports and establishment of an advisory board, external peer review process, and an
approved QA plan have already been discussed. Also, CAU noncompliance with competitive procurement
requirements in EPA regulations was provided above. The following tables identify CAU noncompliance with
other CA conditions, EPA regulations, and OMB requirements.

CA Special Conditions
No Requirement                                     Noncompliance
                                                   Budget period ended 9/3/93. FSR submitted 5/11/94, 4.5
    Submit FSR within 90 days after end of
2                                                  months late, to wrong EPA office. FSR did not agree with CAU
    budget period.
                                                   general ledger. CAU submitted corrected FSR 2/20/95.
    Use of recycled paper for all reports
6                                                  CAU did not use recycled paper because more expensive.
    delivered to EPA.
14 Center Director to involve EPA PO in
                                                   No center director appointed. EPA PO was not involved in
   project development, approval, and
                                                   projects. No Advisory Board established.
15 proceedings of Advisory Board.

                                              EPA Regulations
40 CFR        Requirement                             Noncompliance
              EPA approval of equipment
                                                      No EPA approval for $120,100 in equipment purchases in
30.530(a)     purchases in excess of $10,000 for
                                                      excess of $10,000 each.
              each purchase.
             Equipment/property purchased
                                                      CAU purchased $627,621 in property, equipment for
30.530(b)(1) must be used in EPA assisted
                                                      unrelated purposes.
             project.
              Records/supporting documents for
                                                      Inadequate accounting records and $299,422 of
30.510(b)     the source and application of all
                                                      unsupported costs were identified.
              project funds.
              Control and accountability for all
                                                      Inadequate or nonexistent controls for equipment,
30.510(c)     project funds, property, and other
                                                      procurements, and costs incurred, claimed.
              assets.
                      EPA Automated Clearinghouse Payment System Requirements
              Drawdowns must reflect current          CAU's drawdowns did not reconcile to current
Page 4
              expenditures.                           expenditures.
                                    OMB Circular A-110 Requirements
              Physical inventory of equipment         No inventory or reconciliation performed for $956,499 of
Attachment    and reconciliation with property        equipment purchased during first 3.5 years of CA. CAU
N             records every two years.                performed inventory as result of audit but could not
                                                      reconcile equipment to costs claimed under the CA.
Attachment    Federal Cash Transaction Reports
G             (FCTR) due 15 days after end of         FCTRs were late and not filed quarterly.
              quarter.

PROJECTS OUTSIDE SCOPE OF CA

The VP/R&SP prepared and submitted CEPER workplans to EPA that contained projects that we concluded
were outside the scope of the CA and CERCLA 311(d). Also, the EPA PO's files contained evidence that some
proposed CAU projects were weak, of marginal value, or duplicated projects performed elsewhere. Such
questionable projects could have been precluded if the EPA PO had been more involved in project development
and approval, the EPA PO had notified CAU of deficiencies in the CEPER workplans, and CAU had
established the advisory board and external peer review process required by the CA.

The VP/R&SP told us that no one at EPA ever questioned any of the projects proposed in the 1991 or 1993
CEPER workplans. He also said he never received any notification from EPA that the workplans were not
approved. Because he received no feedback from EPA, he considered the plans to meet all requirements.
However, in our opinion, some of the projects were so far removed from the scope of the CA and CERCLA
311(d) that the VP/R&SP should have been aware that these projects were not within the CA's scope.

The authorizing statute, CERCLA 311(d), specified education and research related to hazardous waste
manufacture, use, disposal, transportation, cleanup, or management. Although the VP/R&SP said that all of the
CEPER projects related directly or indirectly to Superfund and the authorizing statute, we questioned the
relationship of 12 projects.

Of the 28 education, outreach, and research projects included in the 1991 and 1993 CEPER workplans, we
determined that 12 projects (footnote 6) appeared to be unrelated or indirectly related, to a minimal degree, to
the CA and CERCLA 311(d). We questioned $667,653 in costs related to these 12 projects (see Exhibit A,
Notes 2, 6, and 8).

An additional 3 projects were determined to be indirectly related to the scope of the CA and CERCLA 311(d).
However, since there was a substantial relationship between these projects and the scope of the CA and
CERCLA 311(d), we did not question the costs related to these projects. Listed below are the 12 projects we
considered totally outside the scope of the CA and CERCLA 311(d) or with only a minimal indirect relationship
to the Center.

                                                                                                         Costs*
   CEPER Projects Outside The Scope Of CA And CERCLA                      Research        Relation
                                                                                                       10/01/91 -
                          311(d).                                          Area          to Center
                                                                                                        09/30/93
CEPER Project No. 1: The Emission of Mercury into the
                                                                        Ambient Air      Indirect     $0
Atmosphere.
CEPER Project No. 2: Rearrangement of Epoxidyl Free Radicals.           Ambient Air      Indirect     $9,740
CEPER Project No. 3: Mechanisms of Salt Tolerance in Halophytic
                                                                        Plant Biology    None         $29,100
& Glycophtic Plants.
CEPER Project No. 4: Airborne Microorganisms as Continuous
                                                                        Indoor Air       None         $0
Indoor Air Pollutants in Buildings.
CEPER Project No. 6: Economic Consequences of Subtitle D.               Solid Waste      None         $17,252
CEPER Project No. 7: Decomposition of Organophosphorus
                                                                        Pesticides       Indirect     $45,768
Compounds over Alumina-Supported Catalysts.
                                                                        Immunology,
CEPER Project No. 10: The Neutoxic Potentials of the
                                                                                         Indirect     $0
Environmental Pyridines: Relevance to Parkinson's Disease.
                                                                        Physiology
CEPER Project No. 14: Determination of Biochemical Effects
Produced by the Simultaneous Exposure of Human Cells to Multiple Toxicology              Indirect     $96,192
Environmental Pollutants.
CEPER Project No. 18: Aerosal Sciences.                                 Ambient Air      Indirect     $98,430
                                                                                        (a)
                                                                                        Indirect
CEPER Project No. 19: Toward the Development of a
Comprehensive Academic, Research, & Outreach Program in Earth
                                                                                        (b) None
System Sciences: (a)Evaluate & Develop Techniques for Collecting
& Using Vegatative Emissivities for Environmental Remote Sensing
                                                                   Earth Systems        (c)         $120,441
Applications; (b) Fidelity of Satellite Interferences of Transport
                                                                                        Indirect
from the Troposphere to the Stratosphere; (c) Project TEAM
(Teaching Educators about Meteorology); (d) Project Skymath; and
                                                                                        (d) None
(e) Futurescape.
                                                                                        (e) None
                                                                       Immunology,
CEPER Project No. 20: Exposure Modeling of Biological Tissue to
                                                                                        Indirect    $59,848
Electromagnetic Radiation.
                                                                       Physiology
CEPER Project No. 28: To Provide National Congress Support; To
                                                                       Business
Study the Characteristics & Needs of the Minority Environmental                         Indirect    $190,882
                                                                       Development
Business Community.

aCAU did not maintain costs by project. Nonetheless, we were able to associate certain costs to certain projects
via the assigned personnel.

The EPA PO's files for the CA indicated that projects in the 1991 CEPER workplan were submitted to
independent peer reviewers for comment. The EPA PO's file documented many negative comments about the
1991 CEPER workplan including that the projects proposed were weak, of little value, or were duplicative of
work being performed by other organizations. However, there was no evidence that the EPA PO ever informed
CAU of these problems or requested a revised CEPER workplan.

INADEQUATE BUDGETING AND TRACKING OF EXPENDITURES

CAU's Administrative Policy gave the VP/R&SP authority over the budget:

After a project is funded, the proposed budget for a restricted program must be approved by the Vice-President
for Research and Sponsored Programs and the President or Provost.

However, the VP/R&SP did not adequately budget or track the costs for individual projects conducted under the
CA. The 1991 and 1993 CEPER workplans submitted to EPA did not include detailed budgets for individual
projects proposed. They contained only a budget for CEPER as a whole. Within CAU's accounting system, the
VP/R&SP only used one budget for the entire CA and one set of accounts (established by category of costs
rather than project) to plan, record, manage, and report the costs for all projects conducted with CA funds.

Due to the magnitude of funds involved and the diversity of CEPER projects, the VP/R&SP should have
submitted individual project budgets as part of the 1991 and 1993 CEPER workplans. Then, to track budgeted
costs to actual costs, the VP/R&SP should have established and used subsidiary budgets and accounts for each
project. The approach CAU used to budget and account for costs precluded adequate accountability and control
over project costs and represented poor management of the CA. Because of the lack of project accounts, we
could not always directly associate costs to particular projects.

For example, of the 46 CAU employees who charged labor to the CA, we could not associate 22 employees to
any particular CEPER project. These 22 employees charged $390,166 in labor costs to the CA during the first
CEPER budget period. Without a detailed budget for each PI's project, EPA can not identify those PI costs
associated with the CA versus those PI costs associated with other sponsors. When Federal funding is involved,
CAU should provide detailed budgets which breakdown each PI's projects and costs by each sponsor involved.

Another example of inadequate budgeting and tracking of costs related to the Environmental Equity Conference
conducted by CAU in September 1992. EPA amended the CA in September 1992 to provide $105,000 to fund
this conference. However, we could only identify $29,032 in costs charged to the CA for this conference. We
identified the following claimed costs to the conference.

                        Costs Identified for Environmental Equity Conference

          Hotel/Food Costs                               $12,604
          Consultants                                      7,145
          Travel                                           8,197
          Other                                            1,086
                                                         $29,032

We could not identify what the remaining $75,968 ($105,000 minus $29,032) was used for. CAU's response to
the draft report indicated that personnel (faculty and staff) costs composed the remainder of the costs but did not
provide documentation to support their claim. Since CAU did not maintain project costs, CAU's financial
records would not specifically identify the personnel costs associated with the conference.

Additionally, an HCU/MI Consortium Forum was conducted by CAU the very next month (October 1992) for
which we were able to identify over $100,000 in costs charged to the CA. In a demand letter, dated April 3,
1995, we requested that CAU identify the costs claimed during the first budget period for specific conferences
and meetings but CAU failed to provide this information.

In conclusion, the projects conducted with CA funds were numerous and diverse. The 1991 CEPER workplan
identified five major project areas - administrative, technical, infrastructure development, research, and outreach
- and contained 15 proposed projects. In contrast, the budget only presented the proposed CEPER costs in these
overall budget categories

     Personnel:           Management

                          Research

                          Student Assistants



     Non-Personnel:       Workshops, Training, & Seminars
                          Outreach Programs
                          Management Information Systems
                          Equipment
                          Supplies
                          Travel
                          Reproduction/Printing
                          Consultants
                          Other Costs
                          Indirect Costs

Therefore, CAU's budgets did not present a functional breakdown of the costs by the five major CEPER project
areas much less the individual projects in each area. Since no detailed budgets were established, CAU did not
have any means by which to track the costs of the projects conducted under each major project area.

MULTIPLE FUNDING SOURCES FOR CEPER PIs
Many of CEPER's PIs received funding from multiple sponsors, including the EPA CA. However, neither the
1991 nor the 1993 CEPER workplans fully documented each PI's sponsors and the rationale for allocating the
costs associated with the PI's projects among the sponsors, specifically the EPA CA.

Since CAU did not use project budgets and accounts for each CEPER project, it was difficult for us to
determine if the costs of the PI's projects were equitably allocated including the costs allocated to the EPA CA.
For example, the PI for CEPER Project No. 23 charged 100 percent of her labor to CEPER although she
received funding from five other sponsors.

The following table lists the 25 CEPER PIs (only 25 of the 28 CEPER projects had PIs) and their other sponsors
for the period 1991 to 1995:

CEPER PI                    PI's Other Sponsors (1991 to 1995)
PI for CEPER Project
                            DOE, NSF
No. 1
PI for CEPER Project
                            none
No. 2
PI for CEPER Project
                            NSF, Pew Foundation
No. 3
PI for CEPER Project
                            none
No. 4
PI for CEPER Projects
                            Army, HHS, Navy
No. 5,17
PI for CEPER Project
                            none
No. 6
PI for CEPER Project
                            DOE
No. 7
PI for CEPER Projects
                            Battelle, DOD, Novoste Corporation, NSF, Southern University
No. 8,21
PI for CEPER Project
                            AID
No. 9
PI for CEPER Projects
                            Ford Foundation, Georgia Institute of Technology, HHS, NASA, NSF, RCMI
No. 10,20
PI for CEPER Project
                            none
No. 11
PI for CEPER Project
                            DOE, NSF
No. 12
PI for CEPER Projects
                            Army, Navy
No. 13,16
PI for CEPER Project
                            Army, GRA, HHS, USDA
No. 14
PI for CEPER Projects
                            AID, Army, CDC, DOE, DOI, Education, TVA
No. 15,22
PI for CEPER Project
                            DOE, NSF
No. 18
PI for CEPER Project
                            AT&T Foundation, Battelle, DOC, Education, NASA, NOAA, NSF
No. 19
PI for CEPER Project
                            Army, GRA, HHS, Navy, RCMI
No. 23
PI for CEPER Project
                            Army
No. 24
PI for CEPER Project
                            U.S. Information Agency, Fulton County
No. 25

Appendix 3 of this report further identifies and presents additional information on each of these projects.

RECOMMENDATIONS

We recommend that the Director, Grants Administration Division, in coordination with the Director, National
Center for Environmental Research and Quality Assurance, Office of Research and Development, through
modification(s) to the CA or some other means, require the President, Clark-Atlanta University to:

3-1 Appoint a full-time Center Director and assign responsibility for operational and financial management of
CEPER to the Director.

3-2 Disassociate the VP/R&SP from the day-to-day financial, as well as technical management of CEPER.

3-3 Instruct the Center Director to review the CA and relevant EPA regulations and statutory authority and
ensure that all CA conditions, EPA regulations, and statutes have been fully implemented and complied with.
Further instruct the Director to ensure that all CAU internal control policies related to equipment, procurements,
and financial transactions are properly implemented.

3-4 Obtain an external peer review of all on-going and proposed projects, submit peer review comments to the
EPA PO, and, in coordination with the EPA PO, reconsider the funding of any projects deemed outside the
scope of the CA and CERCLA 311(d), of marginal value, or duplicative of projects being performed by other
organizations.

3-5 Require budgets and separate cost accounting for each project or activity funded under the CA.

3-6 Require PIs to disclose all funding sources in project proposals and progress reports to include total project
cost, costs budgeted and/or charged to each funding source, and rationale for allocation of budgeted or actual
costs to the CA.

3-7 Require CAU to provide a breakdown of costs charged to date by project including all research, outreach,
education, conference, forum, administrative, and infrastructure development.

CAU RESPONSE

CAU disagreed with the findings in this chapter but agreed with the recommendations.
CAU objected to what they considered to be an after-the-fact OIG interpretation of whether CEPER projects
were related to Superfund. CAU indicated that at no time was CAU informed by EPA that any aspects of its
original and subsequent proposals were not allowable under the Superfund program. Without being informed to
the contrary, CAU proceeded to implement its program in good faith that EPA had approved its project plan.

CAU indicated that CEPER activities such as education and infrastructure development are indirectly related to
Superfund and thus allowable under Superfund authorities. CAU indicated that CEPER co-sponsorship of
conferences and workshops were justifiable and allowable as an environmental education activity. CAU
maintained that EPA officials understood and approved of CEPER's focus on infrastructure development. CAU
considered infrastructure development to include all activities except actual scientific research and
development.

CAU objected to the audit basis of what was allowable under the CA - namely the "notion" of what the
Superfund authority allowed - as opposed to what the CAU proposal contained. CAU indicated that the auditors
used a narrow definition of Superfund research to evaluate allowability and that the auditors used a very narrow
interpretation of what constitutes a hazardous substance.

CAU maintained that the auditors prejudiced the report by referring to the CAU Project Director as the
VP/R&SP. CAU indicated that the VP/R&SP was not in complete control of CEPER because financial records
and processes were controlled by the CAU Office of Budget and Finance.

CAU indicated that their anticipated acquisition of a large number of computers and office equipment along
with several vehicles was indicated in budget explanations given to EPA in the 1991 workplan. CAU
maintained that EPA's award of the CA, based on CAU's workplan and budget, constituted approval of the
equipment purchased.

CAU indicated that the decision to use a single budget was discussed with the EPA PO who agreed that this
approach was appropriate given the infrastructure development emphasis of the first three years of CEPER.
CAU and the EPA PO agreed that project budgets would be preferable when the focus of CEPER shifted from
infrastructure development to research. Upon substantial completion of the infrastructure development, CAU
fully intended to assign budget codes to individual research projects.

CAU indicated that henceforth all quarterly reports will be submitted.

CAU indicated that leveraging was a specific strategy for CEPER during its development phases and that CAU
sought funding for environmental research, education, and policy analysis from other sources. CAU indicated
that they did not have the same tasks funded by multiple funding sources. CAU indicated that in the future they
will fully describe sponsored projects related to CEPER as well as all sponsored projects for the CEPER PIs.

CAU's comments on the questioned costs presented in this chapter are addressed in Exhibit A.

OIG EVALUATION OF CAU COMMENTS

As described in the report, our review of the scope of the CEPER projects was primarily based on the CEPER
appropriation earmarks, the CA purpose, and CERCLA 311(d). Given the lack of a Center Director, an advisory
board, peer reviewers, and involvement by EPA POs, there were few controls to ensure that CEPER projects
were within either the scope of the CA or the authorizing statute.

Based on CAU's response and discussions with CAU officials after the draft report, in our opinion, CAU
apparently believes that Superfund monies provided under the CA can be used for any environmentally related
activity, no matter how generalized or remote from the purpose of the authorizing statute. We could not
conclude that such activities were properly funded under the limited scope of CERCLA 311(d) which provides
for funding of hazardous waste research and training.

In our opinion, CAU used the CA funds for infrastructure development and support for centers and projects
unrelated to the scope of the CA and authorizing statute. CAU also expended CA funds for generalized
environmental activities, including education, outreach and student financial aid, that did not clearly relate to
hazardous waste research and training or support EPA's Superfund program and related mission. The benefit of
such activities and projects to EPA and the purpose of the Superfund program in a time of government financial
restraint is questionable.

As indicated in the report, CAU mismanaged the CA in an environment of serious internal control weaknesses.
This mismanagement was evidenced by CAU's financial and programmatic records for CA projects and
activities. We did not refer to the VP/R&SP as the CAU Project Director because the VP/R&SP utilized
executive management authorities not held by typical CAU project directors and because the VP/R&SP
represented himself as the VP/R&SP in CEPER-related correspondence.

Copies of CAU's 1991 workplan and budget in EPA files maintained by the PO and GAD did not contain the
equipment listings referred to in CAU's response. Neither was there any evidence in these EPA files that EPA
ever received or approved the subject equipment listings.

CAU's comments on the questioned costs presented in this chapter are included in Exhibit A along with our
evaluation of these comments.

                                          CHAPTER 4
                               ALLOWABILITY OF COSTS NOT ENSURED

Under OMB and EPA procedures, CAU is responsible for day-to-day management of the CA. This
responsibility includes establishing and maintaining an adequate system of controls over CA funds and property
and ensuring that costs claimed under the CA are eligible, allowable, and supported. However, we found
material weaknesses in CAU's controls over CA funds and the property and services acquired under the CA. As
a result, over 70 percent ($3,673,041 of $5,132,757) of the costs claimed by CAU for the first budget period of
the CA were questioned as ineligible or unsupported (see Exhibit A).

OPINION ON ALLOWABILITY OF COSTS CLAIMED

Our review of CEPER's costs focused on the first two-year budget period of CEPER - October 1, 1991 to
September 30, 1993. For that budget period, EPA awarded funds of $5,127,770 and CAU was to match with
funds of $636,002 for a total project cost of $5,763,772. CAU claimed project costs of $5,132,757 on a
Financial Status Report (FSR), dated February 20, 1995. The costs claimed consisted of an EPA share of
$4,568,154 and a CAU share of $564,603.

As part of this audit, we determined the allowability of the costs claimed by CAU so that EPA's participation
would be limited to the allowable portion of the amount approved in the CA.

Allowable costs must be eligible, reasonable, necessary, and allocable to the project, permitted by the
appropriate Federal cost principles, and approved by EPA in the CA.

In our opinion, the costs claimed by CAU were not fairly presented in accordance with the requirements of the
CA due to the substantial amount of costs questioned. The results of our analysis of the allowability of the costs
claimed are summarized below and presented in detail in Exhibit A.

                                               Costs
                                                  Questioned

                           Claimed        Ineligible       Unsupported

Total                   $ 5,132,757      $ 3,373,619       $    299,422
EPA Share (89%)         $ 4,568,154      $ 3,002,521       $    266,486


EPA Share Claimed and Reviewed                             $ 4,568,154

Less EPA Share Questioned:

  Ineligible                             $ 3,002,521
  Unsupported                                266,486

                                                               3,269,007

Allowable EPA Share                                          1,299,147
Balance Due EPA                                            $ 3,269,007

OPINION ON INTERNAL CONTROL AND COMPLIANCE

The management of CAU was responsible for establishing and maintaining an internal control structure and for
ensuring compliance with the CA and associated requirements. The VP/R&SP primarily administered the CA
while CAU's Financial Accounting and Reporting Unit within CAU's Office of Budget and Finance was
responsible for tracking costs under the CA and for performing accounting and financial reporting functions.

In our opinion, CAU management did not establish and maintain an adequate internal control structure and did
not ensure compliance with the CA and associated requirements. Significant internal controls at CAU were not
complied with or were nonexistent. Noncompliance with various requirements and related control weaknesses
resulted in our questioning a significant portion of the costs claimed by CAU (see Exhibit A).

                                                  Personnel

CAU did not have an after-the-fact confirmation of effort as required by OMB Circular A-21, EPA regulations
(CFR 30.500), and CAU policy. The OMB Circular and EPA regulations allow CAU to distribute salaries based
on budgeted, planned, or assigned activity if CAU has, at least annually, a statement that is signed by the
employee or responsible official using suitable means of verification that the work was performed and which
states that the salaries charged are reasonable in relation to the work performed. CAU policy likewise required
time-and-effort certifications by employees for payroll distributions to Federal grants and contracts.

We found that CAU distributed labor costs to Federally-funded projects based solely on PAFs, a before-the-fact
or budgetary type form. However, CAU had no subsequent certifications of labor charges by employees whose
salaries were actually charged to the CA (see Exhibit A, Note 2). In addition, CAU did not have PAFs for 8 of
the 46 employees who charged labor to the CA (see Exhibit A, Note 2).

                                                Procurement

The procurement of goods and services under the CA did not comply with EPA regulations (40 CFR 33), OMB
Circular A-21, and CAU policy. The following types of noncompliance were identified:

   •   Noncompetitive procurement of equipment, vehicles, hotel, professional and subcontracted services.

   •   No documentation of competition or justification for sole source procurements.
   •     No advance approval from EPA for purchases of equipment over $10,000 or for general purpose
         equipment.

Also, CAU's records for their procurements in excess of $10,000 did not comply with EPA regulations (40 CFR
33.250) which require CAU's records to include the basis for contractor selection, a written justification for the
procurement method used, a written justification for any specification that restricts free and open competition, a
written justification for type of subagreement, and the basis for the contract price.

Noncompetitive/Sole Source Procurements - CAU's procurements of goods and services did not comply with
EPA regulations (40 CFR 33.230), OMB Circular A-21, or CAU policy (see Exhibit A, Notes 3-9). We
concluded that CAU's procurement records contained insufficient evidence of free and open competition along
with insufficient evidence of bids, quotes, and rates obtained from more than one source. Also, we concluded
there was also insufficient evidence to justify sole source procurements. The questionable procurements were:

     Equipment (numerous vendors)              $    956,499
Subcontractors
     ECG, Inc.                                 $    316,758
     Basic Technologies, Inc.                       190,882
     Nationwide Technologies, Inc.                   18,000
                                               $    525,640

Vehicles
     Mini-Coach Bus                            $     49,100
     Shuttle Bus                                     29,000
     Passenger Van                                   19,188
     Motor Home                                      12,500
                                               $    109,788

Conferences
     Ramada Inn                                $     55,200
     Georgia World Congress
       Center Food Service                           23,497
     Radisson Hotel                                  22,632
                                               $    101,329
Professional Services
     Gerald Grams                              $     45,000
     Office Products Unlimited                       16,247
     Lawrence Livermore Lab                          12,500
     Threshold Productions                            2,400
                                               $     76,147
Consultants
     Faye Lyons-Gary                           $     23,300
     A. M. A. Imevbore                                7,000
     Theodore Harper                                  4,500
     Dr. Thomas Mensah                                2,500
     Delane Garner                                    2,000
                                               $     39,300
Lease
        Coordinated Properties                 $    37,500
        Total                                  $ 1,846,203

General Purpose Equipment - CAU did not comply with OMB Circular A-21 J16(a)(4) which requires
documented prior EPA approval of all purchases of general purpose equipment. General purpose equipment is
office equipment and furnishings, air conditioning equipment, reproduction and printing equipment, motor
vehicles, and automatic data processing equipment. CAU policy indicates that "...purchases of general office
equipment and furnishings, such as desks, chairs, tables, etc., will not be approved generally by a Federal
agency". We questioned general purpose equipment of $351,295 as ineligible because it was purchased without
documented prior approval from EPA (see Exhibit A, Note 8).
Equipment Purchases Of $10,000 Or More - CAU did not comply with EPA regulations (40 CFR 30.530)
which require prior EPA approval of all purchases of equipment with a unit acquisition cost of $10,000 or more.
We questioned $120,100 of equipment purchases because the required prior EPA approval was not obtained
(see Exhibit A, Note 8).

Subcontracts In Excess of $10,000 - CAU did not comply with

EPA regulations (40 CFR 33.820) which require prior EPA approval for subcontracts over $10,000. CAU had
no documented prior approval by EPA for any of their three subcontracts.

                                                   Equipment

CAU did not maintain adequate control over equipment as required by EPA regulations (40 CFR 30.510) and
OMB Circular A-110, Attachment N. The EPA regulations required CAU to maintain control over and
accountability for all project funds, property, and other assets and provide assurance that these are used solely
for their authorized purpose. The OMB Circular required CAU to properly identify nonexpendable personal
property purchased with assistance funds, perform a physical inventory, and reconcile equipment records every
two years.

CAU could not adequately identify what equipment had been bought with CA funds. CAU provided us with
four different equipment inventory lists during the audit - none of which reconciled to the claimed equipment
costs booked on the general ledger (see Exhibit A, Note 8E). Also, at the time of our audit, almost four years
after the CA was awarded, CAU had not taken an inventory of CEPER equipment or reconciled the equipment
records. However, CAU initiated a CEPER equipment review during our audit.

In our opinion, CAU purchased an unreasonable amount of computer-related equipment given the number of
CAU employees that charged labor to the CA. During the first budget period of CEPER (October 1991 -
September 1993), CAU purchased $344,726 of computer-related equipment including 105 personal computer
systems ($243,851), another 33 monitors ($15,371), another 22 keyboards ($3,520), and another 22 printers
($31,011). However, only 46 CAU employees charged labor costs to the CA during the first budget period, and
only 24 of these employees could be identified with CEPER or specific CEPER projects. As of March 1995, the
number of personal computer systems purchased by CAU and charged to the CA had grown from 105 to 244.

We conducted a physical inventory of a judgmental sample of 102 equipment items during the audit. The
existence of the following six equipment items could not be verified:

   •   A Compact Disc Player assigned to the VP/R&SP which CAU indicated was destroyed in a fire but
       which was shown on CAU's current inventory listing. The Disc Player had not been included in the
       police report concerning property damaged during the fire.

   •   A film evaporator and MacPowerbook Computer 180 assigned to a CAU employee.
   •   A Compaq Contura Computer assigned to the VP/R&SP.

   •   A MacIntosh Powerbook 140 Computer assigned to a non-CAU employee located in another state.
   •   A portable computer that had the same CAU tag number as another computer that we had previously
       verified in another location.
   •   Two computers which could not be located by the CAU employee to whom the equipment was assigned.
   •   Also during our physical inventory, we observed:
   •   CEPER equipment was located in other Federally-sponsored centers such as HiPPAC and the HBCU/MI
       Consortium office.
   •   Some CAU employees were assigned CEPER equipment but did not charge any labor to CEPER.
   •   CEPER equipment being used by administrative personnel in four buildings on the CAU campus.
   •   The use of CEPER fax machines and copiers was not restricted to CEPER personnel.
   •   Unopened computer equipment was in a storeroom in the Research Center for Science and Technology
       that CAU had not assigned to anyone. CAU indicated that none of this equipment was related to
       CEPER.
   •   Used computer equipment was in a storeroom in the Research Center for Science and Technology. CAU
       indicated that not all of this equipment was related to CEPER.

                                                      Travel

CAU did not comply with its own travel policy. OMB Circular A-21 required that travel costs charged to the
CA be incurred in compliance with CAU's travel policy. We noted the following exceptions to CAU's travel
policy:

   •   Employees who charged travel to the CA did not always obtain prior written approval for their trips (see
       Exhibit A, Note 6).

   •   Employees who charged travel to the CA did not always submit reports of actual expenses and receipts
       after their trips (see Exhibit A, Note 6).
   •   CAU did not always follow-up on employees who charged travel advances to the CA and did not submit
       reports of actual expenses and receipts after their trips. During the audit, CAU conducted a review of
       travel advances charged to the CA but we were not fully informed of the results of this review (see
       Exhibit A, Note 6).\

                                                Lack of Invoices

CAU prepaid for goods and services without obtaining subsequent invoices to substantiate actual costs. CAU
prepaid a total of $348,688 consisting of $208,882 for subcontracts, $118,341 for equipment, $14,696 for
supplies, and $6,769 for other direct costs.

For example, the VP/R&SP authorized prepayments of $190,882 to Basic Technologies, Inc., a subcontractor,
based on cash flow needs, without an invoice from the subcontractor. The subcontract required that payments
only be made upon the receipt of invoices. During the audit, CAU did not have any invoices from the
subcontractor to support payments made (see Exhibit A, Note 9)

                                             In-Kind Contributions

CAU did not comply with EPA regulations and CAU policy regarding in-kind contributions (see Exhibit A,
Note 13). EPA regulations (40 CFR 30.307) allow recipients to satisfy the matching requirement with non-cash
contributions called in-kind contributions, if such are: (1) negotiated before and specified in the assistance
agreement; (2) verifiable from the recipient's records; (3) used exclusively for a single project; and (4) properly
allocable to and allowable under the project. CAU had similar policies regarding in-kind contributions. To meet
the 11 percent matching requirement in the CA, CAU claimed $169,049 of in-kind contributions. However, the
CA did not specify any in-kind contributions and the budgets in the 1991 CEPER workplan did not mention in-
kind contributions under cost matching.

The in-kind contributions claimed by CAU represented equipment received from a third party, Georgia State
University (GSU). GSU purchased the equipment with Georgia Research Alliance (GRA) grants awarded to
CAU. The GRA grants are funded by the State of Georgia Lottery. Being a private institution, CAU could not
directly receive the GRA grants because the State of Georgia cannot legally give funds to a private institution.
Therefore, GRA provided CAU's equipment money to GSU who then purchased the equipment and provided it
to CAU.
                                           General Record Keeping

CAU did not have adequate general record keeping. We questioned costs claimed due to inadequate records,
missing approvals, and booking errors. Exhibit A questions a total of $299,422 as unsupported.

                                           Financial Status Report

CAU's final FSR for the first CA budget period was poorly prepared. CAU's original FSR (dated May 11, 1994)
reflected total outlays, Federal share, and recipient share amounts that did not reconcile to CAU's supporting
cost schedules. During our audit, CAU revised their FSR (dated February 20, 1995) to match the supporting
cost schedule. However, the revised FSR was also inaccurate because:

   •   $81,449 of labor adjustments shown on the cost schedule were not reflected in CAU's records.

   •   A $16,787 variance in personnel costs existed between total personnel claimed and CAU's supporting
       records.

   •   No in-kind contributions were shown on the FSR.

RECOMMENDATIONS

We recommend the Director, Grants Administration Division, Office of Grants and Debarment:

4-1 Adjust the CA costs in accordance with our determinations; and
4-2 Take appropriate action to recover the excess EPA funds paid to CAU.
We recommend the Director, National Center for Environmental Research and Quality Assurance, Office of
Research & Development:
4-3 Instruct CAU to implement proper controls and accounting procedures to ensure the eligibility and adequate
support for costs charged to the CA or claimed for cost matching purposes to include:
- Preparation of PAFs for all CAU personnel charged to theCA.

- Obtaining confirmation of labor charges from CAU personnel whose salaries or wages are charged to the CA.

- Ensuring that travel vouchers with receipts and documentation of actual expenses are submitted to justify
travel advances.

- Obtaining invoices to support all payments from CA funds.

4-4 Require CAU to reconcile its inventory of equipment purchased with CA funds with equipment costs
claimed or charged to the CA and account for all property purchased under the CA. The cost of any equipment
used by other sponsored projects should be transferred from CEPER accounts to the appropriate sponsor's
accounts.

   •   4-5 Require CAU to justify each computer or computer related equipment purchased and charged to the
       CA. The number of computers and computer related equipment purchased should be reconciled to the
       number of CAU employees assigned to CEPER management or projects funded under the CA.
   •   4-6 Instruct CAU to request prior EPA approval for: (1) property/equipment purchases with unit
       acquisition costs of $10,000 or more; (2) subagreements exceeding $10,000; (3) general purpose
       equipment, including computers and computer related equipment, to be procured with CA funds; and (4)
       use of in-kind contributions for cost matching.
   •   4-7 Require CAU to ensure that all costs claimed on FSRs are adequately supported by CAU's
       accounting records.

CAU RESPONSE

CAU disagreed with the findings and recommendations in this chapter.

CAU maintained that no internal controls were bypassed, no charges were arbitrary, no charges were
unjustified, there were no sole source procurements, and all CAU policies were adhered to. CAU indicated that
the consolidation of Atlanta University and Clark College caused delays in timely reporting between 1991 and
1994 but that CAU has now established effective financial controls.

CAU indicated that the completion of after-the-fact confirmations of effort was delayed due to a CAU internal
conflict that is now resolved. CAU also indicated that it has already revised or plans to review internal controls
related to cost reclassifications and travel advances.

CAU indicated that persons may conduct CEPER activities that require equipment without charging labor and
that their payment of student stipends under the CA reflected an infusion of environmental issues into the total
curriculum.

CAU indicated that their Office of Grants and Contracts has verified the costs claimed and that the costs
claimed are supported by adequate documentation. CAU maintained that adequate records are available which
support the costs questioned due to inadequate records, missing approvals, and booking errors.

CAU asserted that EPA approval of all equipment purchases and subcontracts was obtained via detailed budgets
in the 1991 and 1993 CEPER workplans. CAU also asserted that all CEPER travel received prior approval and
that receipts must be submitted to receive reimbursement of expenses. CAU indicated that it has obtained back-
up invoices for all prepaid amounts.

CAU believed that they made a good faith effort to meet the matching requirement, that the GRA matching
funds (for equipment purchased by GSU) were not in-kind contributions, and that CAU should not be penalized
for a legal problem that prevented the GRA funds (State funds) from being given directly to CAU (a private
institution).

Other CAU comments on the costs questioned are addressed in Exhibit A.

OIG EVALUATION OF CAU COMMENTS

The following assertions made by CAU were directly contradicted and/or were unsubstantiated by CAU's
records, EPA's records, and other information collected during the audit:

- No internal controls were bypassed;

- No charges were arbitrary;

- No charges were unjustified;

- There were no sole source procurements;

- CAU policies were adhered to;
- CAU has established effective financial controls;

- After-the-fact confirmations of effort were used;

- The costs claimed are supported by adequate documentation;

- Adequate records support the costs questioned due to inadequate records, missing approvals, and booking
errors;

- EPA approved all equipment purchases and subcontracts;

- Travel received prior approval; and

- Receipts support travel reimbursements.

Because CAU's uncooperativeness during the audit required us to utilize a demand letter to obtain records, the
validity of records provided by CAU subsequent to the audit should be carefully considered as to their source
and date prepared.

CAU's response contained various comments that directly contradict statements made by CAU staff during the
audit. For example, CAU's Contract Specialist, Budget Analyst, and Payroll Manager informed us during the
audit that CAU did not use after-the-fact confirmations of effort for labor charges to the CA. This is further
evidence that the actions of the VP/R&SP are not questioned by his supervisor or his subordinates.

We consider CAU's comments regarding persons using CEPER-funded equipment without charging labor to
CEPER and the use of stipends to infuse environmental issues into their general curriculum to be examples of
CAU's improper use of CA funds for leveraging other Federal funding to achieve a CAU agenda of generalized
infrastructure and educational development that was outside the scope of the earmarks, the CA, and CERCLA
311(d).

Our copy of the CEPER budget information in the 1991 CEPER workplan which we obtained from the EPA PO
files did not contain the detailed information on the equipment purchases or the subcontracts. There was no
evidence in the EPA PO files that EPA ever received or approved the equipment purchases and subcontracts
either via CEPER budgets or by any other means.

Further evaluations of CAU's comments on the costs questioned are presented in Exhibit A.


                                                  ANALYSIS OF

                                        ALLOWABILITY OF COSTS CLAIMED



                        FOR THE PERIOD OCTOBER 1, 1991 TO SEPTEMBER 30, 1993



                             UNDER EPA COOPERATIVE AGREEMENT NO. CR818689



                                   AWARDED TO CLARK ATLANTA UNIVERSITY
                                    AUDITOR'S OPINION




                                     Costs

                                         Questioned

   Description        Claimed     Ineligible    Unsupported

Notes

                     (Note 1)

Federal Share:

  Personnel         $ 1,385,834   $ 1,385,834   $           0    2

  Fringe Benefit        222,778       222,778               0    3

  Consultants            59,304         7,258               0    4

  Prof. Services         68,193        45,500          12,450    5

  Travel                226,650       152,178           1,202    6

  Supplies              158,775        13,351          19,168    7

  Equipment             956,499       627,621         231,227    8

  Subcontracts          525,640       190,882          18,000    9

  Stipends              302,546       302,546               0   10

  Other Direct          128,880        90,221          17,375   11

  Indirect              533,055        95,520               0   12

                      4,568,154     3,133,689         299,422

Recipient Share:

  Indirect              395,554        70,881               0   13

  Other                 169,049       169,049               0   13

                        564,603       239,930               0



Total               $ 5,132,757   $ 3,373,619   $     299,422



EPA Share (89%)     $ 4,568,154   $ 3,002,521   $   266,486
EPA Share Claimed and Reviewed                  $ 4,568,154

Less EPA Share Questioned:
  Ineligible                                 $ 3,002,521

  Unsupported                                     266,486

                                                                  3,269,007

Allowable EPA Share                                            $ 1,299,147

Balance Due EPA                                                $ 3,269,007



NOTE: The exhibit notes contain pertinent portions of CAU's response along with an OIG
evaluation. CAU did not respond to all issues nor did we include all of CAU's response.
Some of the issues in this exhibit are discussed in Chapters 2, 3, and 4 of the report.
NOTE 1: COSTS CLAIMED.

CAU claimed a total of $5,132,757 on a revised FSR, dated February 20, 1995, which covered the budget
period October 1, 1991, to September 30, 1993. The total costs claimed by CAU consisted of a Federal share of
$4,568,154 and a CAU share of $564,603. CAU supported the FSR with a cost schedule which presented the
costs claimed by the line items shown in Exhibit A. Several terms used in the Exhibit (e.g. costs claimed, costs
questioned, ineligible costs, and unsupported costs) are defined in Attachment 1.

Within each cost category, certain costs were questioned more than once due to multiple reasons for
unallowability. However, Exhibit A only shows such costs as being questioned once in order to prevent any
duplication in calculating the balance due EPA. Where applicable, the notes indicate which costs were
questioned previously.

NOTE 2: PERSONNEL COSTS.

A. Labor Reporting Practice.

We questioned $1,375,934 of personnel costs as ineligible because CAU's labor reporting practice used for the
CA did not fully comply with the requirements in EPA regulations, OMB Circular A-21, and CAU policy. The
questioned amount represented the total personnel costs claimed of $1,385,834 less a $9,900 payment to the
Georgia Space Grant Consortium Options Program which was not actual personnel costs and which is
questioned under Note 2(D)(2). EPA regulations (40 CFR 30.410) required CAU's labor reporting practice to
comply with the requirements of OMB Circular A-21. OMB Circular A-21 prescribed:

Criteria for Acceptable Methods

The method must recognize the principle of after-the-fact confirmation or determination so that costs
distributed represent actual costs...

Examples of Acceptable Methods

1. Plan-Confirmation: ...at least annually a statement will be signed by the employee, principal investigator, or
responsible official(s) using suitable means of verification that the work was performed, stating that salaries
and wages charged to sponsored agreements as direct charges, and to residual indirect cost or other categories
are reasonable in relation to work performed.

2. After-The-Fact Activity Reports: ...activity reports will reflect the distribution of activity expended by
employees... ...these reports will reflect an after-the-fact reporting of the percentage of distribution of activity of
employees. To confirm that the distribution of activity represents a reasonable estimate of the work performed
by the employee during the period, the reports will be signed by the employee, principle investigator, or
responsible official(s) using suitable means of verification that the work was performed.

3. Multiple Confirmation Records: ...reports will be prepared each academic term, but no less frequently than
every six months...to confirm that distribution of activity represents a reasonable estimate of the work
performed by the employee during the period, the record for each employee will include: (1) The signature of
the employee or of a person having direct knowledge of the work, confirming that the record of activities
allocable as direct costs of each sponsored agreement is appropriate.

Likewise, CAU policy required a time-and-effort certification by employees to support the distribution of
personnel charges to Federal grants and contracts. However, CAU's labor reporting practice used for the CA did
not include any form of an after-the-fact confirmation or certification of effort and no time-and-effort
certifications by employees were prepared. CAU merely distributed labor per each employee's PAF which
represented a before-the-fact or pre-determined distribution of effort.

CAU Response

CAU indicated it followed the labor reporting practice prescribed but time-and-effort reports had not been
completed due to a policy conflict on instructional course load. The conflict was settled during the 1994-95
academic and time-and-effort reports have been completed for sponsored projects and CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged. The comment directly contradicts information provided by CAU personnel
during the audit. CAU's Contract Specialist, Budget Analyst, and Payroll Manager informed us during the audit
that CAU did not use after-the-fact confirmations of effort and/or time-and-effort reports.

B. Cost Transfer.

We questioned $258,692 of personnel costs as ineligible because a cost transfer by the VP/R&SP was
unjustified and did not comply with EPA regulations and CAU policy. In March 1994, the VP/R&SP requested
the transfer of $258,692 associated with eight faculty members for CAU's FYs 1992 and 1993 from unrestricted
budget accounts to CEPER. CAU policy required that journal entries, such as the transfer, be approved by the
Director of Financial Accounting and Reporting and that a purpose or reason for the adjustment be provided.
EPA regulations (40 CFR 30.510) required CAU to have records that supported the transfer.

During the audit, written comments from the VP/R&SP explained that the transfer was made upon his review of
charges to CEPER and represented a belated but routine distribution of effort for faculty members that did not
have PAFs. However, the transfer was neither approved by the Director of Financial Accounting and Reporting
nor included a purpose or a reason for the adjustment. Also, the VP/R&SP had no documentation to indicate
that he performed a review of charges or how he determined the specific amounts transferred for each faculty
member. Nor did the VP/R&SP have any documentation that showed the faculty members actually worked on
CEPER projects. In fact, the PAFs for the eight faculty members for the period immediately following the
transfer - CAU FY 1994 - showed that only one of the faculty members charged to the CA during that time
period. The VP/R&SP made the transfer almost six months after the end of the first budget period for CEPER -
September 30, 1993 - but before the costs claimed for the budget period were submitted to EPA. The $258,692
questioned under this note was also questioned under Note 1(A).

CAU Response
CAU indicated that the transfer was justified based upon activities conducted by the PIs. The Director of Grants
and Contracts Accounting has the authority to approve reclassifications for the Office of Sponsored Programs;
whereas, the Director of Financial Accounting and Reporting approves for the unrestricted budgets. The
VP/R&SP has recommended to the President for Budget and Finance and the university President that definite
procedures need to be implemented.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertions were unsubstantiated by CAU's records and information
collected during the audit. The activities of the PIs could not be verified because CAU had no time-and-effort
reports during the audit.

C. Noncompliance With Special Condition.

We questioned $298,924 of personnel costs as ineligible because the costs were not incurred in compliance with
Special Condition No. 12 in the CA. The special condition required that CAU revise the CEPER workplan as
necessary and submit it for review by the EPA Project Officer. The questioned amount represented five CEPER
projects that represented revisions to the CEPER workplan. CAU neither revised the CEPER workplan to
include the projects nor submitted a revised CEPER workplan with the projects to the EPA Project Officer.

The questioned projects were not among the 15 projects proposed in the 1991 CEPER workplan nor were the
PIs for the questioned projects among the 15 PIs that proposed projects in the 1991 CEPER workplan. The 1993
CEPER workplan contained progress reports on the questioned projects and the PIs for the questioned projects
charged costs to the CA. Since the questioned projects were also included as proposals in the 1993 CEPER
workplan, we only questioned the portion of the projects that were conducted prior to the effective date of the
1993 CEPER workplan - October 1, 1993. The questioned projects and costs were:

                                                                                                       Costs*
Projects With Progress Reports In The 1993 CEPER Workplan Which Were Not Proposed                     (10/01/91
                            In The 1991 CEPER Workplan.
                                                                                                     - 09/30/93)
CEPER Project No. 18: Aerosol Sciences.                                                              $49,600
CEPER Project No. 19: Toward the Development of a Comprehensive Academic, Research, &
Outreach Program in Earth System Sciences: (a)Evaluate & Develop Techniques for Collecting &
Using Vegetative Emissivities for Environmental Remote Sensing Applications; (b) Fidelity of
Satellite Interferences of Transport from the Troposphere to the Stratosphere; (c) Project TEAM      $72,880
(Teaching Educators about Meteorology); (d) Project Skymath; and (e) Futurescape.
[CAU comment: This curriculum and human resources project was included to indicate progress
in faculty development.]
CEPER Project No. 20: Exposure Modeling of Biological Tissue to Electromagnetic Radiation.
                                                                                                     $59,634
[CAU comment: This project was a substitute for CEPER Project No. 10.)
CEPER Project No. 23: Environmentally Hazardous Metals-DNA Interactions; Metal
Sequestering Polymers.                                                                               $79,142
[CAU comment: none.]
CEPER Project No. 24: (a) An Investigation of Airborne Lead Exposures for Sections of the
Atlanta Metropolitan Area; (b) Decision Tool for Assessing Risk to Low-Level Lead Pollutants.
                                                                                                     $37,668
[CAU comment: This project was initiated as a case study for the Environmental Equity
Conference.]
                                             TOTAL                                                   $298,924

*CAU did not maintain costs by project. However, we were able to relate certain costs to certain projects.

The $298,924 questioned under this note was also questioned under Note 1(A).

CAU Response

CAU explained that the five projects questioned were not revisions to the 1991 CEPER workplan. Proposals
submitted to agencies are based upon preliminary work. The preliminary data has to be obtained before the
proposals are submitted which is standard for all academic institutions.

OIG Evaluation of CAU Response

Our position remains unchanged.

D. Outside Scope Of CA.

We questioned $274,113 of personnel costs as ineligible because the costs represented activities outside the
scope of the CA. The questioned amounts were:

(1) $264,213 for 12 research projects that were not directly related to CEPER's mission as described in
CERCLA Section 311(d), the earmark in the 1991 Superfund appropriation, and the project description in the
CA. We identified the 12 projects that did not have a direct relationship to CEPER with assistance from the OIG
Engineering and Science Staff. The OIG Engineering and Science Staff conducted a review of projects'
descriptions in the 1991 and 1993 CEPER workplans and characterized the relationship between each project
and CEPER as direct, indirect, or none. We questioned the following projects:

                                                                           Research        Relation Personnel
 CEPER Projects Questioned As Outside The Scope Of The CA.
                                                                            Area          to Center   Costs
CEPER Project No. 1: The Emission of Mercury into the
                                                                        Ambient Air      Indirect     $0
Atmosphere.
CEPER Project No. 2: Rearrangement of Epoxidyl Free Radicals.           Ambient Air      Indirect     $0
CEPER Project No. 3: Mechanisms of Salt Tolerance in Halophytic &
                                                                  Plant Biology          None         $28,125
Glycophytic Plants.
CEPER Project No. 4: Airborne Microorganisms as Continuous
                                                                        Indoor Air       None         $0
Indoor Air Pollutants in Buildings.
CEPER Project No. 6: Economic Consequences of Subtitle D.               Solid Waste      None         $16,585
CEPER Project No. 7: Decomposition of Organophosphorus
                                                                        Pesticides       Indirect     $0
Compounds over Alumina-Supported Catalysts.
                                                                        Immunology,
CEPER Project No. 10: The Neurotoxic Potentials of the
                                                                                         Indirect     $0
Environmental Pyridines: Relevance to Parkinson's Disease.
                                                                        Physiology
CEPER Project No. 14: Determination of Biochemical Effects
                                                                        Toxicology       Indirect     $37,389
Produced by the Simultaneous Exposure of Human Cells to Multiple
Environmental Pollutants.
CEPER Project No. 18: Aerosol Sciences.                                   Ambient Air     Indirect   $49,600
                                                                                          (a)
                                                                                          Indirect
CEPER Project No. 19: Toward the Development of a
Comprehensive Academic, Research, & Outreach Program in Earth
                                                                                          (b) None
System Sciences: (a)Evaluate & Develop Techniques for Collecting
& Using Vegetative Emissivities for Environmental Remote Sensing
                                                                          Earth Systems   (c)        $72,880
Applications; (b) Fidelity of Satellite Interferences of Transport from
                                                                                          Indirect
the Troposphere to the Stratosphere; (c) Project TEAM (Teaching
Educators about Meteorology); (d) Project Skymath; and (e)
                                                                                          (d) None
Futurescape.
                                                                                          (e) None
                                                                          Immunology,
CEPER Project No. 20: Exposure Modeling of Biological Tissue to
                                                                                          Indirect   $59,634
Electromagnetic Radiation.
                                                                          Physiology
CEPER Project No. 28: To Provide National Congress Support; To
                                                                          Business
Study the Characteristics & Needs of the Minority Environmental                           Indirect   $0
                                                                          Development
Business Community.
CAU did not maintain costs by project. Nonetheless, we were able to associate the costs shown to the projects
indicated.

The $264,213 questioned here was also questioned under Note 1(A). The $49,600 questioned here for project 9
and the $72,880 questioned here for project 10 were also questioned under Note 6(C).

(2) $9,900 paid to the Georgia Space Grant Consortium Options Program for a summer enrichment program for
high school students. CAU claimed the amount as personnel costs but it was not related to personnel charges.
The purpose of the Options Program was to:

...change the future for the metro Atlanta youth of African American descent through self-proclaimed positive
images for the future.

The program was designed to help teenagers cope with life and childhood in general and included discussions
on topics such as peer pressure, drug use and abuse, and alcohol abuse. The program was also intended to
motivate children to succeed. In contrast, the outreach program described in the 1991 CEPER workplan was:

...training and education programs at the K-12, under-graduate, and graduate levels in environmental sciences,
engineering, and toxicology.

CAU Response

CAU indicated the $9,900 represented training and education programs at the K-12 level addressing socio-
economic issues related to elementary and secondary schooling. If the students do not stay in school, they
cannot be educated to become environmental scientists and engineers.

OIG Evaluation of CAU Response
Our position remains unchanged. The Options Program was unrelated to the authorizing statute, CA, and
workplan.

E. Vice-President's Charges.

We questioned $18,105 of personnel costs as ineligible because the costs represented direct charges by the
VP/R&SP which did not comply with EPA regulations and CAU policy. Specifically, the direct charges by the
VP/R&SP should have been indirect charges. EPA regulations (40 CFR 30.410) required CAU to comply with
the cost principles of OMB Circular A-21. OMB Circular A-21 indicated:

Indirect costs are those that are incurred for common or joint objectives... At educational institutions such costs
normally are classified under the following indirect cost categories:...sponsored projects administration
expenses...

The position of VP/R&SP was administrative in nature and as such the charges should not have been direct. The
VP/R&SP charges were included in CEPER's budget submitted to EPA. However, no PAFs were provided for
the VP/R&SP labor charged to CEPER and the VP/R&SP was paid through a special payroll system that was
separate from the CAU employee payroll system. The charges should have been treated as indirect costs and
allocated to CEPER through the normal application of CAU's overhead rate. The impact of the questioned
charges on CAU's overhead rate would have been negligible. The $18,105 questioned under this note was also
questioned under Note 1(A).

CAU Response

CAU indicated that 10 percent for services as project director was indicated in the budget. It is not unusual for a
scientist or engineer to also serve as vice president, or in another administrative capacity. The CEPER project
director is not 100 percent administrator, but rather an active researcher and professor of chemistry. CAU
indicated the CAU Vice President for Finance did not receive a request for information on the executive payroll
system.

OIG Evaluation of CAU Response

Our position remains unchanged. After issuance of the OIG draft report, we made a written request clarifying
the documentation needed to support the VP/R&SP's labor charges to the CEPER. We have not received any
documentation from CAU regarding this matter.

F. Inadequate Records.

We questioned $150,023 of personnel costs as unsupported because CAU did not have adequate records to
support the costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs.

(1) CAU did not have PAFs to support $51,787 charged by eight employees. The $51,787 questioned under this
note was also questioned under Note 1(A) and $13,087 of the $51,787 questioned under this note was also
questioned as part of the $72,880 questioned under Notes 1(C) and 1(D).

(2) CAU did not have any records to support $81,449 in labor adjustments charged to the CA. A total of
$340,141 in labor adjustments were charged to the CA according to CAU's cost summary supporting the FSR.
A transfer made by the VP/R&SP accounted for $258,692 of the adjustments [see Note 2(B)]. CAU had no
records supporting the remaining $81,449 of adjustments. The $81,449 questioned under this note was also
questioned under Note 1(A).
(3) CAU did not have records to support a $16,787 variance between the total personnel costs charged to the
CA and the total costs documented by CAU's records. The variance was as follows:


            Costs claimed                                         $ 1,385,834



            Less documented costs:

               Monthly payrolls                     $ 975,847

               Biweekly payrolls, stipends               43,159

               Adjustments                             340,141

               Options program                            9,900

                                                                      1,369,047

            Unsupported Cost                                      $     16,787

The $16,787 questioned here was also questioned under Note 1(A).

CAU Response

CAU has adequate records to support the costs claimed.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU has not provided documentation to support the charges.

NOTE 3: FRINGE BENEFIT COSTS.

We questioned all fringe benefit costs as ineligible or unsupported for the same reasons the associated personnel
costs were questioned under Note 2.

NOTE 4: CONSULTANT COSTS.

A. Noncompliance With CAU Policy.

We questioned $7,258 of consultant costs as ineligible because the internal consultant services were not
obtained in compliance with CAU policy. CAU's policy on the use of internal consultants required:

Approval through regular University channels is obtained in advance by completing a PAF and a Consultant
Statement of Work Form...; payments are authorized with a requisition accompanied by the previously
approved PAF.

CAU did not have PAFs, Statement of Work Forms, or requisitions which showed that consultant charges were
incurred in accordance with CAU policy. We were able to associate $2,632 of the costs with three employees by
reviewing payroll records but we were unable to identify the employees associated with the remaining $4,626.

NOTE 5: PROFESSIONAL SERVICE COSTS.

A. Outside Scope Of CA; Noncompliance With CAU Policy; Noncompliance With Subcontract Terms.
We questioned $45,000 of professional services as ineligible because the professional services were outside the
scope of the CA, were not obtained in compliance with CAU policy, and the terms of the subcontract were
violated. The costs were outside the scope of the CA because the services were unrelated to the Superfund
mission of the CA and were associated with other projects/sponsors. The $45,000 was incurred for technical
assistance to develop a research program in Aerosol Sciences and an academic program in Geosciences. We
questioned other costs for such activities under Notes 2(C) and 2(F). The services were not obtained in
compliance with CAU policy because the VP/R&SP selected the subcontractor and approved invoices and
payments to subcontractor. Noncompliance with CAU procurement policy is presented in detail in Chapters 3
and 4 of this report. The terms of the subcontract were violated because the payment ceiling was exceeded. The
Letter of Subcontract for the services indicated that total payments were not to exceed $22,500 but $45,000 was
paid to the subcontractor between September 1992 and February 1993.

This project did not directly relate to CEPER's mission as described in CERCLA Section 311(d), the earmark in
the 1991 Superfund appropriation, and the project description in the CA. We determined this project did not
have a direct relationship to CEPER with assistance from the OIG Engineering and Science Staff. The OIG
Engineering and Science Staff conducted a review of projects' descriptions in the 1991 and 1993 CEPER
workplans and characterized the relationship between each project and CEPER as direct, indirect, or none. This
project had an indirect relationship with CEPER and primarily concerned ambient air research.

CAU Response

CAU indicated the subcontract services were within the scope of the CA and Superfund. The subcontract was
appropriately issued in accordance with CAU policy and practice. CAU agreed that an additional payment
under this subcontract should have been paid to the individual as personal services. An amendment to the
subcontract should have been made.

OIG Evaluation of CAU Response

Our position remains unchanged. We concur that the VP/R&SP has the authority to approve subcontracts but
the procurements must be secured by requisitions through the Purchasing Office which was not done.

B. Outside Scope Of CA.

We questioned $500 of professional services as ineligible because the professional services were outside the
scope of the CA. Specifically, the services were unrelated to the Superfund mission of the CA and were
allocable to another sponsored project. The VP/R&SP approved the payment of $500 for laboratory fees for the
analysis of pesticide in field soil samples. The services related to another project - "Impact of Synthetic
Agrichemicals Applied to Banana Crops on Fresh Water Shrimp Populations in St. Vincent and the Grenadines,
West Indies." - funded by AID.

C. Inadequate Records.

We questioned $12,450 of professional services as unsupported because CAU did not provide any records to
support the costs. The questioned amount was recorded on CAU's books as a payment to Lawrence Livermore,
a national laboratory, but CAU had no documentation to support the charge.

CAU Response

CAU indicated the payment was for an activity (Information and Data Systems program) which was included in
the 1991 CEPER workplan.

OIG Evaluation of CAU Response
Our position remains unchanged. We questioned the lack of records to support the charges not the relationship
to the workplan.

NOTE 6: TRAVEL COSTS.

A. Outside Scope Of CA.

We questioned $140,608 of travel costs as ineligible because the costs were outside the scope of the CA.
Specifically, the costs were associated with other projects/sponsors and/or were unrelated to the Superfund
mission of CEPER.

(1) $101,329 for prepaid hotel rooms ($55,200 for 200 rooms and $22,632 for 80 more rooms) and food service
($23,497) associated with a conference - "Forum on Undergraduate Research Experiences of Minority Science,
Mathematics, and Engineering Students and a Workshop on Graduate School Opportunities" - hosted by CAU
in October 1992 at the Georgia World Congress Center in Atlanta, Georgia. Although the 1991 CEPER
workplan indicated that workshops and symposia would be conducted under the outreach program, this
particular conference was not mentioned. The VP/R&SP split the costs associated with the conference between
CEPER and a DOE-funded project - "Historically Black Colleges and Universities/Minority Institutions
Environmental Technology and Waste Management Consortium." In a letter inviting the Project Officer to the
conference, the VP/R&SP indicated that the primary sponsor of the conference was the Consortium funded by
DOE. Nonetheless, the VP/R&SP charged 100 percent of the 280 hotel rooms associated with the conference to
CEPER along with 50 percent of certain food service charges. The VP/R&SP charged the remaining food
service charges to the Consortium. CAU prepaid for the hotel rooms but did not follow-up after the conference
to ensure the prepayments were adjusted to reflect actual charges. A subsequent review of one prepayment
($55,200) by CAU's OMB Circular A-133 auditors found that CAU was due a refund of $9,748 from the hotel.
CAU received the refund and credited it to the CA in 1994. CAU did not include the credit in the costs claimed
so we questioned the entire charge ($55,200). The $22,632 prepayment was not adjusted to actual costs
incurred.

CAU Response

CAU indicated that the CEPER co-sponsorship of the conference and workshop was justifiable as an
environmental education activity under CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged. There was no documentation of how the conference related to Superfund
hazardous waste research and training.

(2) $13,500 of per diem ($6,500) and lodging ($7,000) for 10 students to travel to Duke University, Durham,
NC as "Scholars for the 1993-1994 HBCU/MI Consortium EPA ORD Research Triangle Park
Scholarship/Fellowship Awardees." CAU records showed the costs were associated with another project - "To
Provide Training for Undergraduate Students from HBCUs and MIs of Higher Learning by U.S. EPA RTP
ORD Laboratories and Offices" - funded by EPA under another assistant agreement.

CAU Response

CAU indicated this program was developed as a specific activity of the CEPER program pursuant to the goal of
involving other HBCUs/MIs. CAU sought additional partial funding from EPA/RTP to support this activity
because sufficient funds were not available on the CEPER grant. CAU indicated the splitting of costs is
leveraging.
OIG Evaluation of CAU Response

Our position remains unchanged. According to CAU's records, the VP/R&SP reclassified the costs to the other
EPA project by stating:

...the reason for reallocation was a misunderstanding about the grant to which the expenditures should have
been made. Because there are several EPA grants that support students, the original requisitions were charged
to the wrong budget code....

(3) $11,167 for travel costs related to the "Minority Access to Research Careers/Minority Biomedical Research
Support (MARC/MBRS) Symposium" held in October 1992 in Puerto Rico. The symposium consisted of lectures
on biochemistry, cell biology, cellular biochemistry, epidemiology, immunology, molecular genetics, and
neurobiology. The questioned amount was part of a total cost for the symposium that the VP/R&SP distributed
among CEPER, the Atlanta University Center MARC Program, and the HBCU/MI Consortium. The questioned
amount consisted of a $5,000 payment to Winston-Salem State University which was then used to pay part of a
$10,000 deposit for the hotel in Puerto Rico and $6,167 in travel advances to the CAU attendees. CAU charged
all of the travel advances to CEPER. Three of the four CAU attendees that charged travel costs to CEPER did
not charge any labor to CEPER. Amounts of $2,108, $1,560, and $371 formed part of the $6,167 in travel
advances.

CAU Response

CAU indicated that the partial support of the Puerto Rico conference is justifiable.

OIG Evaluation of CAU Response

Our position remains unchanged. This conference is unrelated to the purpose of the CA.

(4) $1,550 of non-airfare costs for an employee to attend the first IEEE International Conference on Fuzz-lee
Systems. The conference was hosted by the Institute of Electrical and Electronics Engineers Electron Devices
Society.

(5) $1,325 for non-airfare costs for three Oglethorpe Elementary School teachers to attend the DOE-sponsored
National Geographic Society Kids Summer Institute. Travel advances of $702 and $156 were part of the
$1,325.

(6) $1,324 of airfare for the VP/R&SP and an employee to attend program development meetings with the
Department of Agriculture, the U.S. Forest Service, and the Paper Science Institute. The questioned amount
consisted of two charges - $714 and $610.

(7) $1,292 of airfare and non-airfare costs for the VP/R&SP and another employee to attend the "USDA, Forest
Services, Annual AFPA/TAPPI Liaison Committee Meetings." Other trip costs were charged to another project -
"Enhancing CAU's Participation in Defense Research" - funded by the Army. The questioned amount consisted
of three charges - $728, $264, and $300.

(8) $930 for a travel advance given to an employee to attend the National Council of University Research
Administrators 34th Annual Meeting. The employee had no personnel costs charged to the CEPER and the
employee's job title was Program Initiator for the Office of Research and Sponsored Programs. Such charges are
typically overhead expenses. There were no receipts for $341 of the $930 charged to the CA. CAU policy
prescribes the Director's duties include proposal processing, advising, reviewing, and monitoring projects'
performance and reporting. These responsibilities far exceed just the CEPER program. This cost should have
been charged as an overhead expense rather than direct to CEPER.
(9) $913 of non-airfare costs for the VP/R&SP to meet with Jostens Learning Corporation on computer/based
learning for pre-college science, math teachers/students. We questioned $35,000 of equipment costs purchased
from Jostens in Note 8(C).

(10) $908 of non-airfare costs for the CAU Director of the Catalysis Center to attend the Biosym Training and
Review Meeting sponsored by Biosym Technologies, Inc. for the members of the Biosym Catalysis and
Sorption Consortium. The purpose of the meeting was to receive software training in the use of the Catalysis 3.0
Version. We questioned $36,000 of software purchased from Biosym Technologies in Note 8(C).

(11) $849 of airfare costs for three job candidates to visit CAU. Such charges are typically overhead expenses.
If subsequently hired, the job candidates did not charge any costs to CEPER. The documentation did not
indicate what job positions the candidates were interviewing for. The questioned amount consisted of three
airfares - $213, $290, and $346.

CAU Response

CAU indicated that these costs were for three people to present seminars and that these individuals subsequently
met with the VP/R&SP to discuss joining the University.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion directly contradicts CAU records collected during the audit.

(12) $705 of non-airfare costs for the CAU Director of the Catalysis Center to present a research paper at an
American Chemical Society meeting.

(13) $717 of airfare and non-airfare costs for the VP/R&SP to attend a program development meeting with
NOAA officials about an Atmosphere Sciences Programs.

(14) $600 of airfare for an employee to make a presentation for a proposal entitled "Comprehensive Academic
& Outreach in Geophysical Sciences." The employee was a co-PI on a project - "Research Careers In
Geosciences For Minority Scholars" - funded by NSF.

(15) $437 of non-airfare costs for an employee to attend program development meetings with USDA. The
amount was not supported with receipts.

(16) $911 for the VP/R&SP to attend meetings at Tufts University and the Massachusetts Institute of
Technology to discuss Environmental Literacy Programs and the 1992 HBCU Undergraduate Research Forum.

(17) $288 of non-airfare costs for an employee to represent CAU at the Atlanta Cluster Initiative Meeting at the
Department of Interior. CAU had another project - "The Development of Atlanta Cluster Initiative Research
Agenda and Corresponding Proposals" - funded by DOI. The employee had no labor charged to CEPER.

(18) $219 of non-airfare costs for the VP/R&SP to attend program development meetings with business and
industry representatives to discuss the HBCU/MI Consortium's Technology Transfer Programs in Environment
and Information Systems. The HBCU/MI Consortium was funded by DOE.

(19) $161 of non-airfare costs for an employee to make a presentation to MICOM (U.S. Army Missile
Command). The reimbursement check provided to the employee indicated the charges concerned the Office of
Naval Research.
(20) $121 for non-airfare costs for an EPA Intergovernmental Personnel Act (IPA) employee to attend a
meeting with Basic Technologies Inc. and the Undergraduate Committee of the National Congress. This activity
related to the DOE-funded HBCU/MI Consortium. We questioned other costs related to this activity under Note
9(A).

(21) Another $1,362 in travel costs ($2,411 total questioned less $1,049 previously questioned under this Note
6(A)) was questioned because 12 research projects were not directly related to CEPER's mission as described in
CERCLA Section 311(d), the earmark in the 1991 Superfund appropriation, and the project description in the
CA. We identified the 12 projects that did not have a direct relationship to CEPER with assistance from the OIG
Engineering and Science Staff. The OIG Engineering and Science Staff conducted a review of projects'
descriptions in the 1991 and 1993 CEPER workplans and characterized the relationship between each project
and CEPER as direct, indirect, or none. We questioned travel costs related to the following projects:

                                                                                                        Travel
                                                                           Research        Relation
CEPER Projects Questioned As Outside The Scope Of The CA.
                                                                           Area            to Center
                                                                                                        Costs
CEPER Project No.1: The Emission of Mercury into the Atmosphere.           Ambient Air     Indirect     $0
CEPER Project No.2: Rearrangement of Epoxidyl Free Radicals.               Ambient Air     Indirect     $0
CEPER Project No.3: Mechanisms of Salt Tolerance in Halophytic &
                                                                           Plant Biology   None         $0
Glycophytic Plants.
CEPER Project No.4: Airborne Microorganisms as Continuous Indoor
                                                                           Indoor Air      None         $0
Air Pollutants in Buildings.
CEPER Project No.6: Economic Consequences of Subtitle D.                   Solid Waste     None         $667
CEPER Project No.7: Decomposition of Organophosphorus Compounds
                                                                           Pesticides      Indirect     $288
over Alumina-Supported Catalysts.
                                                                           Immunology,
CEPER Project No.10: The Neurotoxic Potentials of the Environmental
                                                                                           Indirect     $0
Pyridines: Relevance to Parkinson's Disease.
                                                                           Physiology
CEPER Project No.14: Determination of Biochemical Effects Produced
by the Simultaneous Exposure of Human Cells to Multiple                    Toxicology      Indirect     $139
Environmental Pollutants.
CEPER Project No.18: Aerosol Sciences.                                     Ambient Air     Indirect     $0
                                                                                           (a)
                                                                                           Indirect
CEPER Project No.19: Toward the Development of a Comprehensive
Academic, Research, & Outreach Program in Earth System Sciences:                           (b) None
(a)Evaluate & Develop Techniques for Collecting & Using Vegetative
Emissivities for Environmental Remote Sensing Applications; (b)            Earth Systems   (c)          $1,103
Fidelity of Satellite Interferences of Transport from the Troposphere to                   Indirect
the Stratosphere; (c) Project TEAM (Teaching Educators about
Meteorology); (d) Project Skymath; and (e) Futurescape.                                    (d) None

                                                                                           (e) None
CEPER Project No.20: Exposure Modeling of Biological Tissue to             Immunology,     Indirect     $214
Electromagnetic Radiation.
                                                                            Physiology
CEPER Project No.28: To Provide National Congress Support; To Study
                                                                    Business
the Characteristics & Needs of the Minority Environmental Business                           Indirect     $0
                                                                    Development
Community.
CAU did not maintain costs by project. Nonetheless, we were able to associate the costs shown to the projects
indicated.

$1,049 of the $2,411 questioned here was questioned in previous notes. The $288 for project 6 was also
questioned under Note 6(A)(17). The $1,103 for project 10 includes $600 also questioned under Note 6(A)(14)
and $161 also questioned under Note 6(A)(19).

CAU Response

CAU indicated that the projects relate to CEPER and disagreed with the OIG engineer's opinion.

OIG Evaluation of CAU Response

Our position remains unchanged.

B. Noncompliance With CAU Policy/OMB Circular A-21/EPA Regulations.

We questioned $14,670 of travel costs as ineligible because the costs were not incurred in accordance with
CAU travel policy, OMB Circular A-21, and EPA regulations. EPA regulations (40 CFR 30.410) required CAU
to comply with the cost principles of OMB Circular A-21. OMB Circular A-21 required allowable travel
expenses to be incurred in accordance with CAU travel policy. CAU policy required: (1) prior authorization of
travel; (2) travel advances be reconciled with actual expenses after the completion of travel; and (3) airfare be
arranged through an authorized travel agency. The following travel costs were questioned:

(1) $8,480 for travel advances given to employees who did not submit actual expenses or receipts after the
completion of the travel. The advances were never reconciled with actual expenses. The questioned travel
advances were:

                    04/29/93    $204

                    04/29/93    $427

                    04/29/93    $204

                    06/24/93    $200

                    05/28/92    $1,762

                    08/31/93    $397

                    08/19/93    $389

                    07/20/93    $156 (a)

                    07/20/93    $702 (a)

                    10/09/92    $1,560 (b)

                    10/09/92    $2,108 (b)
                    10/15/92    $371 (b)

(a) These costs also questioned under Note 6(A)(5).

(b) These costs also questioned under Note 6(A)(3).

CAU Response

CAU indicated if CAU employees do not request a travel advance, a travel requisition form is not completed
until the trip is complete and the employees submit receipts. The employees obtain approval from the VP,
R&SP prior to the travel taking place. CAU indicated that travel advances were reconciled.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertions directly contradict CAU policy and information collected
during the audit. We have not received support for the travel advance reconciliation.

(2) $1,623 for a CAU employee to attend a multi-media production show. The employee did not obtain prior
authorization.

CAU Response

CAU indicated the employee received prior authorization.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's claim is unsubstantiated. The employee did not obtain proper prior
approval in accordance with CAU policy as required by OMB-Circular A-21.

(3) $1,420 for which an employee requested and received reimbursement (paid February 11, 1993) for cash
provided to seven students and chaperons for per diem ($420), lodging ($910), and car rental ($90) to attend the
Southern Community/Labor Conference for Environmental Justice on December 4-6, 1992. Prior authorization
was not obtained because the employee claiming reimbursement signed for the VP/R&SP whose signature was
required for reimbursement. Although meal receipts are not required by CAU policy, the seven students and
chaperons signed statements which required them to submit meal receipts upon the completion of travel and
return any unused funds. Nonetheless, no receipts were submitted and no funds were returned. The signed
statements also indicated that another individual, not the employee claiming reimbursement, provided them the
meal money. The employee claiming reimbursement had no labor charges to CEPER. Also, we were unable to
determine the ownership of the credit card for verification of the lodging ($910) because the costs related to 7
other employees, not the employee claiming reimbursement.

CAU Response

CAU indicated that the individual who signed the travel requisition form was authorized to sign for the VP,
R&SP in his absence. Meal receipts are not required for reimbursement.

OIG Evaluation of CAU Response

Our position remains unchanged. It is improper for an employee who is claiming reimbursement to approve
their expenses in place of the approving official or immediate supervisor. CAU's claim that meal receipts were
not required directly contradicts CAU's records collected during the audit. There was no evidence the employee
claiming reimbursement attended the Conference.

(4) $1,395 for a CAU employee to attend conferences on multi-media technologies and shows for new multi-
media products and general computer products. The employee did not arrange airfare through an authorized
travel agency and prior authorization was not obtained.

CAU Response

CAU indicated the employee received prior authorization. These comments remain constant for item nos. 5-10
below as well as the OIG evaluation.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU employees did not obtain proper prior approval in accordance with CAU
policy.

(5) $705 for the CAU Director of the Catalysis Center to present a paper at the American Chemical Society
meeting. The employee did not obtain prior authorization. This amount was also questioned under Note
6(A)(12).

(6) $437 for an employee to attend a program development meeting with USDA. The employee did not obtain
prior authorization. This amount was also questioned under Note 6(A)(15).

(7) $325 for an employee to attend a presentation for the Title III Directors meeting. The employee did not
obtain prior authorization.

(8) $113 for an EPA/IPA employee to attend a meeting in Washington, D.C. with Basic Technologies Inc. and
the Undergraduate Committee of the National Congress. The employee did not obtain prior authorization. This
amount was also questioned under Note 6(A)(20).

(9) $99 for a CAU employee to attend the Conference on Ethics and Environmental Policies. The employee did
not obtain prior authorization.

(10) $73 for a CAU employee to attend the Conference on Ethics and Environmental Policies. The employee
did not obtain prior authorization.

C. Non-working Meals & Refreshments.

We questioned $12,392 of travel costs as ineligible because the costs represented non-working meals and
refreshments at a conference which were unallowable entertainment expenses per EPA regulations and OMB
Circular A-21. The conference is described in Note 6(A)(1). EPA regulations (40 CFR 30.410) required CAU to
comply with the cost principles in OMB Circular A-21. OMB Circular A-21 stated:

Costs incurred for amusement, social activities, entertainment and any items relating thereto, such as meals,
lodging, rentals, transportation, and gratuities, are unallowable.

According to the General Accounting Office's "Principles of Federal Appropriation Law," food disallowed as
entertainment includes food and drink (including alcohol) served as snacks and refreshments and food and drink
for receptions and banquets.
The questioned costs were:

(1) $7,530 for a reception on October 15, 1992.

(2) $1,476 for a continental breakfast on October 15, 1992.

(3) $1,476 for a continental breakfast on October 16, 1992.

(4) $955 for a refreshment break on October 15, 1992.

(5) $955 for a refreshment break on October 16, 1992.

The $12,392 questioned here was also questioned as part of the $101,329 questioned in Note 2(A)(1).

CAU Response

CAU indicated that the working meals and refreshments for breakfasts, breaks, and receptions were provided in
lieu of per diem to the participants.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertions directly contradict CAU's records collected during the audit.

D. Booking Errors.

We questioned $3,052 of travel costs as ineligible because the supporting records showed the costs should not
have been charged to CEPER. The questioned costs were:

(1) $924 for the VP/R&SP attend the 1993 National Congress Debriefing should have been charged to project
no. 668228, not CEPER.

(2) $680 for the VP/R&SP to attend a program development meeting duplicated costs included in a $1,604
charge to CEPER dated June 30, 1993.

(3) $612 for an employee to attend Training of Trainers Program presented by Office of International Training
should have been charged to project no. 668281, not CEPER.

(4) $442 for the VP/R&SP to make a presentation about the HBCU/MI Consortium and CEPER at a National
Association for Equal Opportunity in Higher Education meeting should have been charged to project no.
668228, not CEPER.

(5) $394 for the VP/R&SP to attend meetings concerning CEPER, National Science Agencies, and other
Agencies. The $394 (one-half of the total trip costs of $788) should have been charged to project no. 668202,
not CEPER.

CAU Response

CAU indicated these were not booking errors but allowable and justifiable charges to the CA.

OIG Evaluation of CAU Response
Our position remains unchanged. CAU's assertions directly contradict CAU's records collected during the audit.

E. Inadequate Records.

We questioned $1,555 of travel costs as unsupported because CAU did not have adequate records to support the
costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs. The questioned
costs were:

(1) $991 of unidentified travel costs. This consisted of three charges - $139, $179, and $673. The $991
questioned here includes $139 also questioned under Project 8 in Note 6(A)(22).

(2) $564 of non-airfare costs for two employees ($214 and $350) to attend the "19th Annual Extramural
Funding Symposium" held in December 1992 at the North Carolina Agricultural and Technical State University.
The employees' airfare was charged to the DOE-funded HBCU/MI Consortium. The relationship of the costs to
CEPER was unclear. The $564 questioned here includes $214 also questioned under Project 11 in Note
6(A)(22).

NOTE 7: SUPPLIES.

A. Ineligible Supplies.

We questioned a total $13,351 of supplies as ineligible as follows:

(1) $8,100 related to the Options Program which were outside the scope of the CA as described in Note 2(D)(3).
The charges consisted of:

- $2,500 for transportation,

- $1,000 for stationery,

- $1,000 for T-shirts,

- $600 for initial fees/start-up costs,

- $500 for contest materials,

- $500 for hardware,

- $500 for miscellaneous items,

- $400 for a picnic,

- $300 for research,

- $250 for electronic supplies,

- $180 for the SCITREK,

- $125 for a meeting

- $100 for office support,
- $60 for educational supplies

- $55 for the Fernbank Science Center, and

- $30 for the Apex Museum.

CAU Response

CAU indicated the costs are allowable as a science and engineering outreach program of CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged. In our opinion, the Options program was a generic program designed to
increase the number of college bound students.

(2) $3,806 for chemicals and lab supplies purchased by a faculty member who did not charge any effort to
CEPER.

(3) $902 for laboratory supplies purchased from the Aldrich Chemical Company. The questioned amount
resulted from an initial charge of $1,055 and a subsequent credit of $153. The supporting records for the charge
showed the charge did not relate to CEPER but to these other projects: $137 to project 430273, $20 to project
432208, $381 to project 432217, $68 to project 432209, and $296 to project 432217.

CAU Response

CAU indicated this had been corrected.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU should decrease their claim by the questioned amount.

(4) $185 of duplicated costs. A PI claimed and was paid for one charge twice. The PI was PI for a Navy project
and also charged labor to CEPER. The costs were duplicated on two separate purchase requisitions - one
charged to CEPER and one charged to the Navy project. The duplicate claims were reimbursed in one check
provided to the PI.

CAU Response

CAU indicated that if the PI was reimbursed twice as alleged, the $185 will be refunded by the PI.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU should decrease their claim by the questioned amount.

(5) Another $358 for supplies ($4,164 total questioned less $3,806 previously questioned in Note 7(A)(2)) was
questioned because 12 research projects were not directly related to CEPER's mission as described in CERCLA
Section 311(d), the earmark in the 1991 Superfund appropriation, and the project description in the CA. We
identified the 12 projects that did not have a direct relationship to CEPER with assistance from the OIG
Engineering and Science Staff. The OIG Engineering and Science Staff conducted a review of projects'
descriptions in the 1991 and 1993 CEPER workplans and characterized the relationship between each project
and CEPER as direct, indirect, or none. We questioned supply costs related to the following projects:
                                                                                                        Supply
                                                                           Research        Relation
CEPER Projects Questioned As Outside The Scope Of The CA.
                                                                           Area            to Center
                                                                                                        Costs
CEPER Project No.1: The Emission of Mercury into the Atmosphere.           Ambient Air     Indirect     $0
CEPER Project No.2: Rearrangement of Epoxidyl Free Radicals.               Ambient Air     Indirect     $3,806
CEPER Project No.3: Mechanisms of Salt Tolerance in Halophytic &
                                                                           Plant Biology   None         $0
Glycophytic Plants.
CEPER Project No.4: Airborne Microorganisms as Continuous Indoor
                                                                           Indoor Air      None         $0
Air Pollutants in Buildings.
CEPER Project No.6: Economic Consequences of Subtitle D.                   Solid Waste     None         $0
CEPER Project No.7: Decomposition of Organophosphorus Compounds
                                                                Pesticides                 Indirect     $0
over Alumina-Supported Catalysts.
                                                                           Immunology,
CEPER Project No.10: The Neurotoxic Potentials of the Environmental
                                                                                           Indirect     $0
Pyridines: Relevance to Parkinson's Disease.
                                                                           Physiology
CEPER Project No.14: Determination of Biochemical Effects Produced
by the Simultaneous Exposure of Human Cells to Multiple                    Toxicology      Indirect     $0
Environmental Pollutants.
CEPER Project No.18: Aerosol Sciences.                                     Ambient Air     Indirect     $0
                                                                                           (a)
                                                                                           Indirect
CEPER Project No.19: Toward the Development of a Comprehensive
Academic, Research, & Outreach Program in Earth System Sciences:                           (b) None
(a)Evaluate & Develop Techniques for Collecting & Using Vegetative
Emissivities for Environmental Remote Sensing Applications; (b)            Earth Systems   (c)          $358
Fidelity of Satellite Interferences of Transport from the Troposphere to                   Indirect
the Stratosphere; (c) Project TEAM (Teaching Educators about
Meteorology); (d) Project Skymath; and (e) Futurescape.                                    (d) None

                                                                                           (e) None
                                                                           Immunology,
CEPER Project No.20: Exposure Modeling of Biological Tissue to
                                                                                           Indirect     $0
Electromagnetic Radiation.
                                                                           Physiology
CEPER Project No.28: To Provide National Congress Support; To Study
                                                                    Business
the Characteristics & Needs of the Minority Environmental Business                         Indirect     $0
                                                                    Development
Community.
CAU did not maintain costs by project. Nonetheless, we were able to associate the costs shown to the projects
indicated.

B. Inadequate Records.
We questioned $19,168 of supplies as unsupported because CAU did not have adequate records to support the
costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs. The questioned
costs were:

(1) $14,696 for prepayments for computer accessories and lab supplies. CAU had no supporting vendor
invoices.

(2) $2,924 for two payments ($1,519 and $1,405) to Fisher Scientific. CAU had no records to support the
charges.

(3) $1,079 for computer software (Afterdark Screensaver) purchased from Networking Peripheral. The
relationship between this software and CEPER was unclear.

(4) $352 for powered loud speakers and other stereo equipment purchased from Circuit City for a multi-media
production. The relationship between the stereo equipment and CEPER was unclear.

(5) $117 for a reimbursement to a faculty member dated March 4, 1993. CAU had no records to support the
charge.

CAU Response

CAU indicated supporting documentation is available for items 1, 2, and 5. CAU indicated that items 3 and 4
are allowable.

OIG Evaluation of CAU Response

Our position remains unchanged. No records to support these costs were provided during the audit.

NOTE 8: EQUIPMENT.

A. Cost Transfer.

We questioned $319,819 of equipment costs as ineligible because a cost transfer by the VP/R&SP was
unjustified and did not comply with EPA regulations and CAU policy. In March 1994, the VP/R&SP prepared a
memorandum addressed to the Director of Grants and Contracts Accounting requesting the transfer of the costs
from two other Federally-funded projects to CEPER. The stated justification for the transfer was that the
VP/R&SP had done a review of charges. During the audit, written comments from the VP/R&SP explained that
this review was done in May 1994. CAU policy required that journal entries, such as the transfer, be approved
by the Director of Financial Accounting and Reporting and that a purpose or reason for the adjustment be
provided. EPA regulations (40 CFR 30.510) required CAU to have records that supported the transfer. The
transfer was neither approved by the Director of Financial Accounting and Reporting nor included an adequate
justification.

The VP/R&SP had no documentation to indicate that he performed a review or how he determined the specific
amounts transferred. Nor did the VP/R&SP have any documentation that showed the equipment was actually
used on CEPER projects. CAU's records (purchase orders, purchase requisitions, and vendor invoices) for the
costs showed that the equipment related to the two other Federally-funded projects. The costs were originally
charged to the two other Federally-funded projects with the approval of the VP/R&SP. The VP/R&SP made the
transfer almost six months after the end of the first budget period for CEPER - September 30, 1993 - but before
the costs claimed for the budget period were submitted to EPA. The following costs were transferred:
(1) The VP/R&SP transferred $177,098 associated with a project - "Enhancing CAU's Participation in Defense
Research" - funded by the Army. The original charges to the Army project were between nine and 13 months
prior to the transfer. The charges were:

(a) $35,128 for computer equipment purchased from Silicon Graphics. The Army project number was on the
purchase order and purchase requisition. The VP/R&SP approved the purchase.

CAU Response

CAU indicated that the equipment procured was for the GIS laboratory which was being developed for the
CEPER Center. The reclassification was justifiable.

OIG Evaluation of CAU Response

Our position remains unchanged.

(b) $29,768 for computer equipment ($3,693) and analytical equipment ($26,075) purchased from Silicon
Graphics. The Army project number was on the purchase orders, purchase requisitions, and vendor invoices but
the equipment was delivered to the HiPPAC Center funded by NASA. During our audit we observed that some
of this equipment was in a virtual reality lab associated with a project - "A Visualization, Stimulation & Design
Laboratory (VISIDEL)" - funded by the Army. The VP/R&SP approved the purchase.

CAU Response

CAU indicated that the there is no ViSiDEL funded by the Army. The laboratory in question was specifically
developed under CEPER as integral to the GIS laboratory.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion that ViSiDEL was not funded by the Army directly
contradicts CAU's records collected during the audit. Based on the supporting records reviewed, some of the
equipment was identified with the NSF-funded Center for the Theoretical Study of Physical Systems (CTSPS).
This directly contradicts other CAU comments (no. 62 and 78) which indicated that CTSPS is the only center
activities in the Research Center not related to CEPER.

(c) $25,654 for computer equipment purchased from Apple Computers. The Army project number was on the
purchase orders and purchase requisitions. The VP/R&SP approved the purchase.

(d) $21,125 for three separate purchases ($9,015, $5,500, and $6,610) for computer equipment purchased from
Networking Peripheral. The Army project number was on the purchase orders and purchase requisitions. The
VP/R&SP approved the purchases. During the audit, we observed that some of the equipment (the $5,500
charge) was being used by the Director of the Admissions Office. The Director of Admissions did not charge
any labor to CEPER. CAU's inventory showed that this item was assigned to the VP/R&SP.

(e) $18,893 for analytical equipment purchased from Silicon Graphics. The Army project number was on the
purchase order, purchase requisition, and vendor invoice. The VP/R&SP approved the purchase.

(f) $14,216 for computer equipment purchased from Apple Computers. The Army project number was on the
purchase order and purchase requisition. The VP/R&SP approved the purchase.
(g) $11,357 for computer equipment purchased from Networking Peripheral. The Army project number was on
the purchase order and purchase requisition. The VP/R&SP approved the purchase.

(h) $9,978 for equipment purchased from National Instruments. The Army project number was on the purchase
order and purchase requisition. The VP/R&SP approved the purchase. Both the vendor invoice and the CAU
check to the vendor were for $3,370 not $9,978.

(i) $4,077 for computer equipment purchased from Comark/USA Flex. The Army project number was on the
purchase order and purchase requisition. The VP/R&SP approved the purchase.

(j) $3,230 for computer equipment purchased from Networking Peripheral. The Army project number was on
the purchase order and purchase requisition. The VP/R&SP approved the purchase.

(k) $1,650 for equipment purchased from National Instruments. CAU had no supporting records for this charge.

(l) $1,034 for computer equipment purchased from Knowledge Garden. The Army project number was on the
purchase order, purchase requisition, and vendor invoice. The VP/R&SP approved the purchase. The equipment
was delivered to an employee who charged no labor to CEPER.

(m) $988 for computer equipment purchased from Apple Computers. CAU did not have a purchase order or a
purchase requisition for the charge. The Army project number was on the vendor invoice.

(2) The VP/R&SP transferred $142,721 associated with a project - "High Performance Polymers and Ceramics
Research Center (HiPPAC)" - funded by NASA. The original charges to the NASA project were between 12
and 15 months prior to the transfer. The charges were:

(a) $33,845 for a copying machine purchased from ACME Business Products. The NASA project number was
on the vendor invoice, purchase order, and purchase requisition. The equipment was ordered by the PI for the
HiPPAC Center and was delivered to the HiPPAC Center. The VP/R&SP approved the purchase.

(b) $29,593 for laboratory equipment purchased from Micrometrics. The NASA project number was on the
vendor invoice, purchase order, and purchase requisition. The equipment was ordered by the PI for the HiPPAC
Center and was delivered to a researcher in the HiPPAC Center. The VP/R&SP approved the purchase.

(c) $27,562 for laboratory equipment purchased from Perkin-Elmer. The NASA project number was on the
vendor invoice, purchase order, and purchase requisition. The equipment was ordered by the PI for the HiPPAC
Center and was delivered to a researcher in the HiPPAC Center who charged no labor to CEPER. The
VP/R&SP approved the purchase.

(d) $23,370 for laboratory equipment purchased from ABB Autoclave Systems. CAU did not prepare a
purchase requisition for the charge but the NASA project number was on the purchase order and the vendor
invoice. The equipment was delivered to the HiPPAC Center.

(e) $18,786 for two purchases ($8,646 and $10,140) equipment purchased from Fisher Scientific. CAU had no
supporting records for these charges.

(f) $9,565 for laboratory equipment purchased from the H. M. Morgan Company. The NASA project number
was on the vendor invoice, purchase order, and purchase requisition. The equipment was ordered by and
delivered to the PI for the HiPPAC Center. The VP/R&SP approved the purchase.

CAU Response
CAU indicated that reconciling charges and reclassifications towards the end of its fiscal year or the end of the
project is standard practice. Procedures are being implemented to correct this practice.

CAU indicated that due to a delay in available facilities, the PIs were directed by the VP/R&SP not to acquire
equipment. However, requisition requests from the PIs were submitted to the project staff who charged the
equipment to two other projects with equipment line items: the HiPPAC grant from NASA and the Army grant.
The VP/R&SP later realized the charges were incorrect and should have been charged to CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertions about the charging of the equipment directly contradicts
CAU records which indicated the VP/R&SP approved and/or initiated all equipment purchases under the other
grants. The delay in available facilities does not substantiate charging equipment purchases to other federal
grants and later reclassifying the costs. Since facilities were not available to house equipment, CAU's response
does not substantiate why the purchases were made.

B. Outside Scope Of CA.

We questioned 286,291 of equipment costs as ineligible because the costs were outside the scope of the CA.
Specifically, the equipment was associated with other projects/sponsors, was used by personnel or for purposes
unrelated to the Superfund mission of CEPER, was used for activities not included in the 1991 CEPER
workplan, were used by or assigned to personnel who did not charge labor to CEPER, and/or were unapproved
predating purchases.

(1) $49,100 for a Classic Bus purchased from the Metrotrans Corporation. CAU records showed the bus was not
used exclusively by CEPER. During the audit, the VP/R&SP explained the purchase as follows:

It was anticipated at the time of the submission of the CEPER three year proposal in June 1991 that vehicles
will be needed to support the substantial outreach and pre-college programs; the technology transfer program
through workshops, conferences, short-courses and field-trips for the research projects. Upon inquiry, it was
found that the typical daily rental cost for a medium-sized bus was $550 to $700 plus insurance. Based upon
this cost and the projected usage, it was felt it would be more cost-effective to acquire buses and van for the
CEPER Center. Thus, provision was made in the budget submitted to EPA to acquire one bus in year one, a
second bus in year two and a van in year three. The procurement was handled by the Director of University
Transportation. He visited several vendors and made a recommendation to the CEPER Director. Several bids
were reviewed before a decision was made. Based upon costs and available funds, the second bus and van were
bought used from the dealers.

The outreach activities described in the 1991 CEPER workplan did not mention purchasing the bus and the
budget in the 1991 CEPER workplan did not mention any vehicle costs. CAU did not have vendor quotations or
other records indicating any cost analysis.

CAU Response

1) The Director of Transportation refuted all the facts in this finding. His response is included as an Appendix to
CAU's response.

2) CAU included a copy of a detailed cost budget identifying vans to be purchased during the first budget
period.

OIG Evaluation of CAU Response
Our position remains unchanged.

1) CAU's assertions regarding the procurement of the vehicles was unsubstantiated by CAU's records and
information collected during the audit.

2) The detailed budget listing the van was not included in the EPA PO's 1991 CEPER workplan. We found no
evidence that EPA ever received this equipment listing.

(2) $36,000 for a three-year membership/licensing agreement for modeling software for the development of
improved sorption and catalysis purchased from Biosym Technologies Inc. The software was delivered to the
NASA-funded HiPPAC Center. During the audit, we observed that the software was in a HiPPAC facility and
was being used by HiPPAC personnel and other employees who did not charge labor to CEPER. The licensing
period predated the CA by one year and CAU did not have prior EPA approval to charge the predated costs as
required by OMB Circular A-21. The licensing agreement was not mentioned in the 1991 CEPER workplan.

CAU Response

The auditors misunderstood the licensing software agreement which caused them to reach false conclusions.
CAU indicated the software development was initiated in 1989-90 by Biosym Technologies, Inc. in
collaboration with researchers across the country. Upon joining, the $36,000 was paid as an initiation fee which
was required regardless of when one enters into an agreement to use the software.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion directly contradicts CAU documentation we collected during
the audit.

(3) $35,000 for a product license and service agreement purchased from Jostens Learning Corporation. The
purchase included 25 computer work-stations, INVEST Learning Program software, Early Childhood Learning
software, Basic Learning System software, Physical Science Program software, Compton's Encyclopedia
software, and support services. The licensing agreement predated CEPER by three months and CAU did not
have prior EPA approval to charge the predated costs as required by OMB Circular A-21. The agreement was
not mentioned in the 1991 CEPER workplan. The questioned amount was part of a total cost of $114,279 that
was allocated by the VP/R&SP ($35,000 to CEPER, $69,279 to a Navy-funded project, and $10,000 to a NSF-
funded project). During the audit, the VP/R&SP explained the following about the charge:

This system had already been selected by the Atlanta Public School System with which several pre-college
programs for students and teachers had been proposed under the CEPER program. Thus, to maintain
compatibility with a computerized learning system that the teachers and students in the Atlanta Public School
System were already using, we had to install the same system for the computer networked laboratory that was
established in the School of Education Clement Hall building at Clark Atlanta University.

CAU Response

CAU indicated the $35,000 payment was made after the award of the CA and is allowable under CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged. The payment (dated April 1992) was made after award; however, the
licensing agreement predated the CA (October 1991). It was unclear why CAU did not make payment until
April 1992.
(4) $11,651 for computer equipment purchased from SBM Computers. CAU's inventory listing indicated that
these three items ($4,272, $4,272, and $3,107) were assigned to employees who did not charge any labor to
CEPER and their relationship to CEPER was unclear.

(5) $8,940 for two facsimile machines ($4,470 each) purchased from ACME Business Products. The machines
were assigned to two employees that did not charge any labor to CEPER and their relationship to CEPER was
unclear. The purchases were prepaid but CAU did not have subsequent vendor invoices to substantiate the
actual costs.

CAU Response

CAU indicated the costs are allowable and all documentation is available.

OIG Evaluation of CAU Response

Our position remains unchanged. No acceptable documentation was provided during the audit.

(6) $8,940 for two facsimile machines ($4,470 each) purchased from ACME Business Products. The machines
were shipped to the NASA-funded HiPPAC Center. CAU's inventory listing showed one machine was assigned
to an employee who did not charge any labor to CEPER. The other machine was assigned to the VP/R&SP but
was reportedly stolen from CAU.

CAU Response

CAU indicated that the equipment was for use by the CEPER project office and the CEPER faculty members
and staff.

OIG Evaluation of CAU Response

Our position remains unchanged.

(7) $5,451 for a receiver, antenna, and weather monitoring equipment. This equipment was assigned to a PI
whose personnel costs were questioned as outside the scope of the CA under Note 2(D)(1).

CAU Response

The charge is appropriate; the project was allowable under CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged.

(8) $4,100 for a photocopier purchased from Electro-Graphics Products (check 49116, purchase requisition
82121). The photocopier was purchased for and physically located in the HBCU/MI Consortium's Trailer. The
vendor's invoice also related the photocopier to the HBCU/MI Consortium. CAU's inventory listing showed the
photocopier was assigned to an employee that did not charge any labor to CEPER.

CAU Response

CAU stated the non-computing equipment was delivered to the CAU director of technical services.
OIG Evaluation of CAU Response

Our position remains unchanged.

9) $3,777 for a printer. The purchase was for the Southern Center for Studies in Public Policy. The equipment
was assigned to an Office Manager whose only labor charges to CEPER predated this purchase by four months.

CAU Response

CAU indicated that the equipment was for the use by the faculty and staff who are conducting environmental
policy and outreach activities of CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged.

(10) $3,126 for computer equipment purchased from Compaq Computer Corporation. The computers were
assigned to two EPA employees on IPA assignments at CAU. The IPA agreement for one EPA employee
showed that the DOE-funded HBCU/MI Consortium would provide such equipment to the EPA employee
while the IPA agreement for the other EPA employee showed that CAU would be responsible for providing
such equipment to the EPA employee.

CAU Response

CAU indicated that the EPA IPAs came to CAU to develop environmental policy, education and research
programs that predated the development of the HBCU/MI Consortium.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion directly contradicts the EPA IPA agreements.

(11) $2,158 for computer equipment purchased from Networking Peripherals. The items were purchased for an
off-campus facility located at 82 Piedmont Avenue in Atlanta, Georgia which currently houses CAU's Office of
International Training and Development. We could not determine the relationship between this Office and
CEPER.

(12) $1,499 for a color scanner purchased from Comp USA.

CAU's inventory listing showed the scanner was assigned to an employee that did not charge any labor to
CEPER. The relationship between the equipment and CEPER was unclear.

(13) $1,289 for a device programmer and a logic analyzer purchased from Link Computer Graphics. CAU's
inventory listing showed the items were assigned to an employee who did not charge any labor to CEPER. The
relationship between the equipment and CEPER was unclear.

(14) Another $115,260 in equipment purchases ($160,983 total questioned less $45,723 previously questioned
in this Note 8(B)) was questioned because 12 research projects were not directly related to CEPER's mission as
described in CERCLA Section 311(d), the earmark in the 1991 Superfund appropriation, and the project
description in CA. We identified the 12 projects that did not have a direct relationship to CEPER with
assistance from the OIG Engineering and Science Staff. The OIG Engineering and Science Staff conducted a
review of projects descriptions in the 1991 and 1993 CEPER workplans and characterized the relationship
between each project and CEPER as direct, indirect, or none. We questioned equipment purchases related to the
following projects:

                                                                       Research         Relation        Equipment
CEPER Projects Questioned As Outside The Scope Of The CA.
                                                                       Area             to Center       Costs
CEPER Project No.1: The Emission of Mercury into the
                                                                       Ambient Air      Indirect        $0
Atmosphere.
CEPER Project No.2: Rearrangement of Epoxidyl Free Radicals.           Ambient Air      Indirect        $5,934
CEPER Project No.3: Mechanisms of Salt Tolerance in Halophytic
                                                                       Plant Biology    None            $975
& Glycophytic Plants.
CEPER Project No.4: Airborne Microorganisms as Continuous
                                                                       Indoor Air       None            $0
Indoor Air Pollutants in Buildings.
CEPER Project No.6: Economic Consequences of Subtitle D.               Solid Waste      None            $0
CEPER Project No.7: Decomposition of Organophosphorus
                                                                       Pesticides       Indirect        $45,480
Compounds over Alumina-Supported Catalysts.
                                                                       Immunology,
CEPER Project No.10: The Neurotoxic Potentials of the
                                                                                        Indirect        $0
Environmental Pyridines: Relevance to Parkinson's Disease.
                                                                       Physiology
CEPER Project No.14: Determination of Biochemical Effects
Produced by the Simultaneous Exposure of Human Cells to                Toxicology       Indirect        $58,664
Multiple Environmental Pollutants.
CEPER Project No.18: Aerosol Sciences.                                 Ambient Air      Indirect        $3,830
                                                                                        (a)
                                                                                        Indirect
CEPER Project No.19: Toward the Development of a
Comprehensive Academic, Research, & Outreach Program in Earth
                                                                                        (b) None
System Sciences: (a)Evaluate & Develop Techniques for Collecting
& Using Vegetative Emissivities for Environmental Remote
                                                                 Earth Systems          (c)             $46,100
Sensing Applications; (b) Fidelity of Satellite Interferences of
                                                                                        Indirect
Transport from the Troposphere to the Stratosphere; (c) Project
TEAM (Teaching Educators about Meteorology); (d) Project
                                                                                        (d) None
Skymath; and (e) Futurescape.
                                                                                        (e) None
                                                                       Immunology,
CEPER Project No.20: Exposure Modeling of Biological Tissue to
                                                                                        Indirect        $0
Electromagnetic Radiation.
                                                                       Physiology
CEPER Project No.28: To Provide National Congress Support; To
                                                                       Business
Study the Characteristics & Needs of the Minority Environmental                         Indirect        $0
                                                                       Development
Business Community.
CAU did not maintain costs by project. Nonetheless, we were able to associate the costs shown to the projects
indicated. Amounts shown are taken from CAU inventory listing.

The total of $160,983 listed in the table includes $45,723 also questioned as part of this Note 8(B):
- The $58,664 questioned for Project 8 includes $36,000 also questioned under Note 8(B)(2).

- The $58,664 questioned for Project 8 includes $4,272 which was part of the $11,651 also questioned under
Note 8(B)(4).

- The $46,100 questioned for Project 10 includes $5,451 also questioned under Note 8(B)(7)

The $115,260 questioned here includes amounts previously questioned under other notes:

- The $58,664 questioned for Project 8 includes $9,565 also questioned under Note 8(A)(2).

- The $46,100 questioned for Project 10 includes $3,554 also questioned as part of the $14,216 questioned
under Note 8(A)(1)(f).

CAU Response

For item numbers 11-14 above, the charges were justifiable and allowable under CEPER.

OIG Evaluation of CAU Response

Our position remains unchanged.

C. Booking Errors.

We questioned $41,238 of equipment costs as ineligible because the supporting records showed the costs should
not have been charged to CEPER. The questioned costs were:

(1) $21,055 for a variance between the actual amount of a check and the costs booked to the general ledger for a
payment made to Apple Computer. The actual amount of check no. 31748 was $13,694 not the $34,749 booked
to the general ledger.

(2) $7,108 for a duplicated charge for computer equipment purchased from Apple Computer. The charge (check
no. 53038) was initially booked twice to two separate accounts - capital equipment and scientific supplies. The
charge in the scientific supplies account was then transferred to the capital equipment account. This resulted in
the same charge appearing twice in the capital equipment account and our identifying the duplicate charge.

(3) $6,608 for a variance between the actual amount of a check and the amount that was reclassified to CEPER.
The actual amount of check no. 55453, paid to National Instruments, was $3,370 not the $9,978 that was
charged to CEPER. These costs were also questioned under Note 8(A)(1)(h).

(4) $6,467 for computer equipment purchased from Apple Computer. Supporting records showed the
questioned amount should have been charged to the DOE-funded HBCU/MI Environmental Technology and
Waste Management Consortium. The questioned amount was part of a total CEPER charge of $15,278 that
should have been split between CEPER ($8,811) and the DOE-funded Consortium ($6,467). The $8,811
charged to CEPER was questioned as unsupported in Note 8(E)(3).

CAU Response

CAU provided justification as to why the cost was split.

OIG Evaluation of CAU Response
We agree with CAU's response. The charge should have been split. However, the total cost was charged to
CEPER.

D. Lack Of EPA Approval.

We questioned $387,295 of equipment costs as unsupported because the equipment purchases were not
approved by EPA. The applicable criteria and questioned amounts were as follows:

(1) $351,295 of general purpose equipment did not have documented evidence of prior approval by EPA as
required by OMB Circular A-21. The Circular defined general purpose equipment that required prior EPA
approval as follows:

General purpose equipment means equipment, the use of which is not limited only to research, medical,
scientific or other technical activities. Examples of general purpose equipment include office equipment and
furnishings, air conditioning equipment, reproduction and printing equipment, motor vehicles, and automatic
data processing equipment.

Capital expenditures for general purpose equipment, buildings, and the land are unallowable as direct charges,
except where approved in advance by the sponsoring agency.

The following purchases were questioned:

 Amount           Check No.              Description

$49,100   (a)     27660        Classic Bus
$42,379           79347        Computers
$35,000   (b)     35581        Jostens licensing agreement
$26,791           55309        Computers
$23,970   (c)     38424        Computers
$21,290   (c)     38409        Computers
$18,607   (d)     53067        Printers
$18,087   (f)     56397        Computers
$12,752           50277        Computer accessories
$12,102           38585        Computers
 $8,940   (e)     528132       Facsimile machines
 $7,108           53038        Computers
 $6,084   (f)     56397        Computer
 $5,630           49285        Computer, facsimile machine
 $5,283           50796        Computer accessories
 $4,470   (g)     49823        Facsimile machine
 $4,470   (g)     53069        Facsimile machine
 $4,100   (h)     49116        Photocopier
 $4,100   (f)     45117        Photocopier
 $3,777   (i)     51498        Printer
 $3,715   (j)     36530        Computer, printer
 $3,126   (k)     53936        Computers
 $2,923           40006        Computers
 $2,799           39984        Computers
 $2,550   (f)     56364        Printer
 $2,324           38605        Computers
 $2,310           43032        Printer
 $2,230   (l)     47500        Computers
 $2,158   (m)     52070        Scanner
 $2,095           34419        Laser disc player
 $1,995           30964        Printer
 $1,840   (l)     52050        Printer
 $1,749           44133        Printer
 $1,645           37172        Printer
 $1,499 (n)          52042     Scanner
 $1,289 (o)          53271     Computer accessories
 $1,008              53067     Computer

              (a)    Also questioned under Note 8(B)(1).
              (b)    Also questioned under Note 8(B)(3).
              (c)    Also questioned under Project 6 in Note 8(B)(14).
              (d)    $11,651 of the $18,607 also questioned under Note 8(B)(4).
              (e)    Also questioned under Note 8(B)(5).
              (f)    Also questioned under Project 10 in Note 8(B)(14).
              (g)    Also questioned under Note 8(B)(6).
              (h)    Also questioned under Note 8(B)(8).
              (i)    Also questioned under Note 8(B)(9).
              (j)    Also questioned under Project 8 in Note 8(B)(14).
              (k)    Also questioned under Note 8(B)(10).
              (l)    Also questioned under Project 9 in Note 8(B)(14).
              (m)    Also questioned under Note 8(B)(11).0
              (n)    Also questioned under Note 8(B)(12).
              (o)    Also questioned under Note 8(B)(13).

The $351,295 questioned here includes a total of $220,402 which was also questioned under Note 8(B).

(2) Another $36,000 ($120,100 total questioned less $84,100 previously questioned in this Note 8(D)) was
questioned because the equipment purchases did not have documented evidence of prior approval by EPA as
required by EPA regulations. The regulations (40 CFR 30.530) required:

Before you purchase personal property or equipment with a unit acquisition cost of $10,000 or more, you must
receive the award official's approval.

The following purchases were questioned:

     Amount                 Description
    $49,100         Classic bus
    $36,000         Biosym Technologies licensing agreement
    $35,000         Jostens licensing agreement

The total of $120,100 for the three purchases shown above includes $49,100 and $35,000 previously questioned
in this Note 8(D). The three purchases were also questioned under previous notes:

- The $49,100 purchase was also questioned under Note 8(B)(1).

- The $36,000 purchase was also questioned under Note 8(B)(2)

- The $35,000 purchase was also questioned under Note 8(B)(3).

CAU Response

CAU indicated that the list of equipment to be purchased was submitted with the CEPER budget explanation.
CAU provided the list with their response to the draft audit report.

OIG Evaluation of CAU Response

Our position remains unchanged. The list of equipment that CAU provided was not included in the budget
information for the 1991 CEPER workplan contained in the EPA PO's files. There was no evidence that EPA
ever received or approved this equipment list.
E. Inadequate Records.

We questioned $119,354 of equipment costs as unsupported because CAU did not have adequate records to
support the costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs.

(1) A total of $45,284 was not supported by a purchase requisition, purchase order, and vendor invoice. The
questioned costs were:

Amount Description $20,757 Check 55062 to Networking Peripheral $13,694 Check 31748 to Apple
Computers $10,833 Check 34405 to Apple computers

(2) A total of $38,270 was not supported with any documentation. The questioned costs were:

Amount Description

$12,746 Check 29122 to CBM Corporation

$9,279 Check 39038 to Varian Associates

$3,943 Check 31366 to Apple Computers

$3,866 Check 32554 to Apple Computers

$3,357 Check 33897 to Apple Computers

$1,793 Check 53038 to Apple Computers

$1,786 Check 54288 to Networking Peripheral

$1,500 Check 32104 to American Comp Tech

(3) A total of $28,592 was not supported by a vendor invoice. The questioned costs were:

Amount                              Description
$12,752*    Check   50277   to Dell Computers
 $8,811     Check   30329   to Apple Computers
 $2,310*    Check   43032   to Networking Peripheral
 $1,995*    Check   30964   (prepayment) to Technical Supplies
 $1,749*    Check   44133   (prepayment) to Networking Peripheral
   $975**   Check   57011   (prepayment) to VRW Scientific

      * Also questioned under Note 8(D)(1).
      ** Also questioned under Project 3 in Note 8(B)(14).

CAU Response

CAU indicated that all costs are supported with the proper documentation.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion that all costs are supported was unsubstantiated by CAU's
records collected during the audit.
(4) $4,100 for a photocopier purchased from Electro-Graphics Products (check no. 45117, purchase requisition
no. 77111).

The item was purchased for McPheeters-Dennis Hall. The purchase order indicated the purchase was prepaid
but CAU did not have a subsequent vendor invoice to support the charge. The relationship between the
equipment and CEPER was unclear. These costs were also questioned under Project 10 in Note 8(B)(14) and
Note 8(D)(1).

CAU Response

CAU indicated faculty members who are conducting environmental policy analysis projects use this equipment.

OIG Evaluation of CAU Response

Our position remains unchanged. No documentation was submitted to support CAU's response.

(5) $2,095 for a Pioneer laser disc player purchased from Technical Industries. The purchase was for the
VP/R&SP. The item was reportedly destroyed in a fire. The purchase was prepaid but CAU did not have a
subsequent vendor invoice to substantiate actual costs. These costs were also questioned under Note 8(D)(1).

CAU Response

CAU indicated this equipment was not for the VP/R&SP but rather the pre-college programs that were
inventoried in the name of VP/R&SP.

OIG Evaluation of CAU Response

Our position remains unchanged.

(6) $1,013 for French/English translation software purchased from Globalink. During the audit, we observed
that the software was located in a storage room and was not being used. The relationship between the software
and CEPER was unclear.

CAU Response

CAU indicated the software was purchased to allow environmental documents in French to be translated.
Specialized software was repacked after installation.

OIG Evaluation of CAU Response

Our position remains unchanged. There was no documentation to support the relationship of this software to
CEPER.

NOTE 9: SUBCONTRACT COSTS.

A. Outside Scope Of CA.

We questioned $190,882 of subcontract costs as ineligible because work by the subcontractor was outside the
scope of the CA. The subcontract work was unrelated to the Superfund mission of the CA, was associated with
another project/sponsor, and was not included in the 1991 CEPER workplan. The subcontractor - Basic
Technologies, Inc. (BTI) - provided support for a conference and conducted a study. The conference was the
"1993 National Conference For The Advancement Of Minorities In The Environmental Profession" held in
February 1993 and the study was "A Minority Environmental Business Exchange (MEBEX)." The subcontract
was signed in December 1992 and work began in January 1993. The subcontract specifically mentioned EPA
and CEPER.

However, neither the conference nor the study was Superfund-related and the HBCU/MI Consortium had a
cooperative agreement with DOE to conduct the conference. In fact, BTI's report on the conference specifically
showed that BTI was a subcontractor to the HBCU/MI Environmental Technology Consortium for the U.S.
DOE under CA no. DE-FC04-90-AL66158. Also, CAU did not mention the subcontract or services in the 1991
CEPER workplan. In 1992, CAU requested EPA to modify the CA and add $349,868 for the conference but
EPA did not award the funds. In 1993, CAU mentioned the subcontract and services in the 1993 CEPER
workplan but the conference had already been held and the study had already begun. Further, CAU had already
paid BTI the $190,882 prior to the effective date of the 1993 CEPER workplan - October 1, 1993.

The BTI subcontract was CEPER Project No. 28. In our opinion, CEPER Project No. 28 did not directly relate
to CEPER's mission as described in CERCLA Section 311(d), the earmark in the 1991 Superfund appropriation,
and the project description in the CA.

We determined this project did not have a direct relationship to CEPER with assistance from the OIG
Engineering and Science Staff. The OIG Engineering and Science Staff conducted a review of projects'
descriptions in the 1991 and 1993 CEPER workplans and characterized the relationship between each project
and the CA as direct, indirect, or none. That review determined that this project had an indirect relationship.

CAU Response

CAU indicated the subcontract costs were allowable and related to the outreach and technology transfer
components of the CEPER. The purpose of the conference was to increase the awareness of minority
professionals and businesses of Superfund remediation so that these companies could participate in
environmental clean-up activities.

OIG Evaluation of CAU Response

Our position remains unchanged. The project description does not support CAU's response that this conference
was related to Superfund remediation.

B. Inadequate Records.

We questioned $208,882 of subcontract costs as unsupported because CAU did not have adequate records to
support the costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs.
CAU did not have invoices to support the following payments to subcontractors:

 Amount             Subcontractor
$100,000*      Basic Technologies
 $90,882*      Basic Technologies
 $18,000       Nationwide Technologies

      * These costs were also questioned under Note 9(A).

CAU Response

CAU indicated the payments made to BTI represented advances to cover cash flow needs and BTI subsequently
submitted invoices to CAU, but those invoices were not in the files provided to the auditors.
OIG Evaluation of CAU Response

Our position remains unchanged. CAU did not provide documentation to support the charges.

NOTE 10: STIPEND COSTS.

We questioned $302,546 of stipend costs as ineligible. The questioned amounts represented all stipend costs
claimed. The stipends were paid to more than 50 students and were identified as housing, board, tuition and
fees, or simply stipends. CAU's records for the stipend charges consisted of a Financial Aid Roster form for
each stipend payment.

A. Outside Scope Of CA.

We questioned $302,546 of stipend costs as ineligible because the costs were outside the scope of the CA. The
questioned amounts were:

(1) $229,355 for which CAU's records did not substantiate a relationship between the stipends, the students, or
the students' work and CEPER. Since it was unclear how the stipends related to CEPER, the VP/R&SP
provided the following explanation during the audit:

The CEPER director submits roster of student support as either fellowships, tuition support or stipends. There
are two types of student support under the CEPER Program: 1) PRISM-D (Program for Research Integration
and Support for Matriculation to the Doctorate) - these students are selected upon a competitive review of
incoming freshman applications; and 2) normal research assistantships for both undergraduate and graduate
students under Federally sponsored projects. Here the students work as assistants to faculty and research
scientists on CEPER projects.

We noted the following:

(a) CAU's budget for CEPER contained in the 1991 CEPER workplan did not contain any stipend costs.

(b) The budget did contain $90,600 of personnel costs for five graduate student assistants and three
undergraduate student assistants. However, no students were included in the 46 individuals identified as
charging to CEPER.

(c) In an August 1992 letter, EPA approved a $62,000 PRISM-D program as part of CEPER's education
program. EPA's approval indicated the need for CAU to designate a project leader, develop a scope of work,
develop a detailed budget, and prepare a project approval form for the Project Officer and VP/R&SP to sign.
However, CAU had no evidence that any of these tasks were accomplished. Since CAU did not budget and
track the costs of individual CEPER projects, CAU did not have any records which showed the costs of the
PRISM-D project funded by EPA. CAU also received $5.0 million from the U.S. Navy for a PRISM-D
program.

(d) The rosters did not indicate which stipends were associated with PRISM-D and which stipends were normal
research assistantships. Since the student assistants included in CEPER's budget were listed as personnel costs
and no students charged personnel costs to CEPER, we concluded the stipends must have related to the PRISM-
D program. However, the stipends claimed by CAU significantly exceeded the $62,000 PRISM-D program
funded by EPA as part of CEPER's activities.

CAU Response
CAU indicated that wages for students who serve as project assistants are paid as stipends and appropriate taxes
are taken out. The fact that the remuneration is labeled stipends for processing purposes was apparently taken as
the basis for disallowance by the auditors. The $90,600 budgeted was paid as stipend wages to students. The
statement that the PRISM-D amendment was not followed by a specific plan is inaccurate. ONR encouraged
expansion of the program through other federal agencies. The idea was to impact as many students as possible
especially since nearly 90% of the 1,000 freshman students receive some kind of financial support. The specific
information about which students worked under which PIs was available. However, the auditors only reviewed
financial transaction documents.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU incorporated financial aid as a major program of CEPER for purposes
unrelated to the educational component of the Superfund statutes. Over half of the stipends were directly for
tuition and about 10% for housing. We identified only five students with research projects and their stipends
represented almost 20% of the amount claimed. While one of the goals of CEPER is to increase the number of
minority environmental scientists and engineers, the VP/R&SP indicated that CAU does not have
environmental science degree majors. CAU did not justify the relationship between the students' degree
programs, Psychology for example, and the Superfund research of CEPER. We reviewed all financial and
programmatic documents that CAU provided. CAU's assertion concerning the information about the students
and the PIs was unsubstantiated by CAU records collected during the audit.

(e) A breakdown of the $229,355 in stipends was as follows:

  Students's Department        Tuition Tuition & Fees Stipend Housing            Total
Computer Science/Chemistry               8,077             2,000                10,077
Physics/Chemistry                        14,430            9,000                23,430
Chemistry                                12,920            10,500               23,420
Computer Science                         9,417                                  9,417
Computer Science                         7,330             3,100                10,430
Chemistry                                947               1,500                2,447
Biology                                  3,600             1,500                5,100
Computer Science                         13,788                                 13,788
Chemistry                                                  2,550                2,550
Chemistry                                                  3,000                3,000
Computer Science                         5,295                                  5,295
Chemistry                                                  7,500                7,500
Chemistry                                                  2,550                2,550
Computer Science                         3,210             3,000     2,193      8,403
Biology                        270                                              270
Chemistry                                7,526             3,400                10,926
Biology                                   1,036                                  1,036
Chemistry                                                   250                  250
Chemistry                                                   1,000                1,000
Chemistry                                                   1,500                1,500
Computer Science                          1,765                                  1,765
Mass Communications                       2,500                                  2,500
Chemistry                                                   3,000                3,000
Economics                                 927               4,000                4,927
Chemistry                                                   5,000                5,000
Biology                                   309                                    309
Biology                         2,430     5,210                                  7,640
Finance                                   2,781                                  2,781
Math                                      7,150             5,000                12,150
Biology/Chemistry                                           7,100                7,100
Chemistry                                 1,134             3,050                4,184
Chemistry                                 365                                    365
Biology                         1,834     4,975             6,000                12,809
English                                   3,550                                  3,550
Chemistry                                                   2,600                2,600
Math                                                        250                  250
Computer Science                          2,781                       3,106      5,887
Math                                      1,854                                  1,854
Biology                                                     3,000                3,000
Computer Science                          5,295                                  5,295
Totals                          4,534     128,172           91,350    5,299      229,355

(2) $9,600 for five students associated with the NASA-funded HiPPAC Center.

(3) $3,134 for stipends paid for time periods prior to the start of the CA. These stipends involved four students
and the time periods of Summer of 1991 and the month of September 1991.

CAU Response

CAU indicated the CA was initiated in September 1991 and the stipends were for the period September-
December 1991. No stipends were paid to students for summer 1991.
OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion that no stipends were paid for time periods prior to the CA
directly contradicts the CA and CAU records collected during the audit.

(4) $810 for a student who was not enrolled for the period of the stipend - June 1993. A handwritten note on the
Financial Aid Roster indicated that the student was not enrolled.

CAU Response

A student may work during the summer semester without taking a course. In these cases, the Financial Aid
Office may consider the student not enrolled.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion was unsubstantiated by CAU's records collected during the
audit.

B. Inadequate Records.

We questioned $59,647 of stipend costs as unsupported because CAU did not have any records to support the
costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support the costs.

CAU Response

CAU provided a schedule of stipends and copies of financial aid rosters and indicated that no discrepancies in
the costs claimed.

OIG Evaluation of CAU Response

Our position was revised. CAU submitted rosters for the $59,647 with their response to the draft audit report but
we could not verify the accuracy of the rosters. Nonetheless, we continued to question the $59,647 as ineligible
for the reasons stated in Note 10(A)(1).

NOTE 11: OTHER DIRECT COSTS.

A. Outside Scope Of CA.

We questioned $90,221 of other direct costs as ineligible because the costs were outside the scope of the CA.
The questioned amounts were:

(1) $42,000 of rent for two mobile office buildings. However, there was no evidence (e.g. lease agreement) that
CAU rented the buildings. In fact, CAU purchased the buildings for $65,738 from Space Master Buildings and
charged the costs to a non-sponsored project account. In January 1993 CAU transferred $42,000 of the purchase
costs to CEPER and the remaining amount to another project. The transfer was made per a December 1992
memorandum written by the VP/R&SP. The memorandum by the VP/R&SP authorized a lump sum charge of
$42,000 of rent to CEPER. The purchase was not included in the 1991 CEPER workplan and this purchase was
not approved by EPA as required in OMB Circular A-21.
Additionally, CAU did not provide the documentation (check no. 39576) supporting the payment to Space
Master Buildings which was eventually reclassified as rent charges to CEPER. The Fiscal Year 1993 Single
Audit Report identified this same cost ($42,000) as unsupported.

CAU Response

CAU indicated the purchases of the two mobile laboratories were made subsequent to the memo written by the
VP/R&SP. The trailers were rented since 1985 and were used for other projects. Upon being vacated, research
staff under CEPER moved in. Upon discovery that the CEPER project had not paid the appropriate rent, the
VP/R&SP agreed the CEPER project should be charged.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion about the timing of the memo and the purchase of the
laboratories directly contradicts documentation collected during the audit. Also, CAU's assertion concerning the
length of time the trailers were used by CEPER personnel and the allocation of $2,000 of rental costs for 21
months was unsubstantiated by CAU records collected during the audit.

(2) $37,500 for rent of a building for a Space Training Program from February 1992 to June 1992. That
program was not included in the 1991 CEPER workplan and was not Superfund-related. Also, the lease
agreement contained an option to purchase under which the rental payments would be deducted from the
purchase price of property. The building now houses CAU's Office of International Training and Development.
The VP/R&SP authorized the monthly payments and charged the rent to CEPER.

CAU Response

CAU indicated it has not conducted a Space Training Program. The rent for the office space was to house the
CEPER program since the Research Building was not completed. Later, the CEPER program exchanged offices
by housing the Office of International Training in the rented space and the CEPER project offices consolidated
into two trailers.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion about the purpose of the building rental directly contradicts
and was unsubstantiated by CAU's records collected during the audit. In Chapter 2, we reported there were no
CEPER administrative offices established nor a Center Director appointed. As a result, this raises the issue of
what individuals comprised the CEPER program office.

(3) $6,769 for books including "Making Paper War Planes", "AIDS", "New Theories of Diet and Nutrition",
"Search for Extraterrestrial Life", and "Good Sports." The books were not included in the 1991 CEPER
workplan and were not Superfund-related. The VP/R&SP requested the purchases and approved the payments.

CAU Response

CAU indicated the books were allowable as they were purchased under the CEPER pre-college environmental
science program. The books were requested by the teachers in the program.

OIG Evaluation of CAU Response

Our position remains unchanged. Other CAU comments indicated that CAU does not have environmental
science majors.
(4) $3,083 to produce a video - "Racing to Save the Planet."

The questioned amount was part of a total cost of $13,142 that was originally charged (December 1992) by the
VP/R&SP to an Army funded project - "Create Program Materials Encouraging Students to Study
Environmental Engineering and Sciences and Documents." The VP/R&SP later transferred the questioned
amount from the Army project to CEPER in June 1993.

CAU Response

CAU indicated the video was developed for the pre-college outreach program supported by the CEPER project.
It was appropriate for the CEPER project to provide partial support. CAU requested funding from the U.S.
Army to partially support this development; however, CAU indicated the Army project did not support pre-
college activity but rather supported the services for the script writing and shooting of the video.

OIG Evaluation of CAU Response

Our position remains unchanged. Based on CAU's records, the cost transfer was arbitrarily charged to the
CEPER program without proper justification.

(5) $714 for printing visitor information brochures and maps for guests of the "Forum on Undergraduate
Research Experiences of Minority Science, Mathematics, and Engineering Students and a Workshop on
Graduate School Opportunities" hosted by CAU in October 1992. Costs associated with this forum were
questioned as outside the scope of the CA in Note 6(A)(1).

CAU Response

CAU indicated this cost related to the Forum for Undergraduate Students held October 1992.

OIG Evaluation of CAU Response

Our position remains unchanged. We questioned all costs associated with the Forum because the costs were
outside the scope of the Agreement.

(6) $155 of maintenance fees associated with a bus questioned as outside the scope of the CA under Note
8(B)(1).

B. Inadequate Records.

We questioned $17,375 of other direct costs as unsupported because CAU did not have adequate records to
support the costs. EPA regulations (40 CFR 30.510) required CAU to maintain records to support all project
costs. The questioned amounts were:

(1) $16,247 for the purchase of 1,000 canvas bags, printing 1,000 camera-ready abstract booklets, 1,000
program booklets and 1,000 dinner programs. CAU had no records for the costs. The VP/R&SP charged the
costs to CEPER.

(2) $1,128 of unidentified printing costs.

CAU Response

CAU indicated that this cost was related to the Forum held in October 1992.
OIG Evaluation of CAU Response

Our position remains unchanged. We questioned all costs associated with the Forum because the costs were
outside the scope of the CA. CAU did not provide supporting documentation for the $1,128 of charges.

NOTE 12: INDIRECT COSTS.

We questioned $95,520 of indirect costs as ineligible because CAU applied their indirect rate to an incorrect
base. CAU included stipend costs in the base but should not have according to CAU's indirect cost rate
agreement applicable to the CA. CAU claimed a portion (31.572 percent) of its approved indirect rate (55.0
percent) as Federal share and claimed the remaining portion (23.428 percent) as cost matching. CAU applied
the reduced rate (31.572 percent) to a base ($1,688,380) which included salaries and wages ($1,385,834) and
stipends ($302,546). We recalculated the indirect costs using the same rate but without including the stipends in
the base. The questioned amount was calculated as follows:

Indirect Costs Claimed (31.572% x $1,688,380) $533,055

Less: Indirect Costs Per Audit (31.572% x $1,385,834) 437,535

Costs Questioned $ 95,520

CAU Response

CAU indicated it pays wages to students who work on sponsored projects in stipends, with the appropriate tax-
withholding.

OIG Evaluation of CAU Response

Our position remains unchanged. CAU's assertion that stipends were wages was unsubstantiated by CAU
records and information collected during the audit.

NOTE 13: RECIPIENT SHARE.

The claimed recipient share of $564,603 consisted of $395,554 for waived indirect costs and $169,049 for
assistance from the Georgia Research Alliance (GRA). The waived indirect costs resulted from CAU only
applying a portion (31.572 percent) of its approved indirect cost rate (55 percent) and claimed the unapplied
portion (23.428 percent) as recipient share.

A. Waived Indirect Costs.

We questioned $70,881 of cost matching as ineligible because CAU applied their indirect rate to an incorrect
base as explained in Note 12. The questioned amount was calculated as follows:

Indirect Costs Claimed (23.428% x $1,688,380) $395,554

Less: Indirect Costs Per Audit (23.428% x $1,385,834) 324,673

Costs Questioned $ 70,881

B. Assistance From GRA.
We questioned $169,049 of cost matching as ineligible because the assistance from GRA represented in-kind
contributions that were in noncompliance with EPA regulations. The GRA assistance consisted of funding for
equipment purchases. The GRA funds awarded to CAU actually went to Georgia State University (GSU) who
purchased the equipment desired by CAU and then provided the equipment to CAU. Since CAU received
equipment and not cash and the actual equipment purchases were made by GSU and not CAU, the equipment
represented non-cash matching known as in-kind contributions. EPA regulations (40 CFR 30.307) required the
in-kind contributions to be: (1) negotiated before and specified in your assistance agreement; (2) verifiable from
your records; (3) used exclusively for a single project; and (4) properly allocable to and allowable under the
project. However, CAU's in-kind contributions were not specified in the CA and were not verifiable from
CAU's records. Also, the GRA assistance was not identified as matching funds in the budget in the 1991
CEPER workplan and CAU did not identify the equipment costs as in-kind contributions on their FSR. During
the audit, the VP/R&SP indicated that four pieces (totaling $293,000) of GRA-funded equipment were CEPER-
related. The equipment, amount, and related projects cited by the VP/R&SP were:

             Equipment                      Amount       Project

CAU Microchemical Lab                      $75,000     Center for
                                                       Molecular
                                                       Medicine

Infrared Spectrometer                      $18,000     Non-Chlorine
                                                       Bleaching of
                                                       Kraft Pulp

Near Infrared Immunochemistry:             $150,000    Pharmaceutical
  FT-IR/FT Raman Spectrometer                          Applications

Workstation for NWR                        $50,000     Core Facility:
                                                       600 Mhz NMR
                                                       Spectrometry

Per GRA's records, CAU did not receive final notification of the awarded funds for the four equipment
purchases until March 1994 which was after the cutoff date for the FSR. During our audit, we could only verify
the purchase of one item - the Raman Spectrometer - for $16,936 in July 1994 which was after the cutoff date
for the FSR. Also, the project titles cited by the VP/R&SP did not correspond with any of the CEPER Projects.

CAU Response

1) CAU indicated that the characterization of the Georgia Research Alliance (GRA) matching as in-kind is a
technical legal problem associated with the receipt of State of Georgia funding by private institutions.

2) CAU provided the acquisition cost of the equipment procured through Georgia State University (GSU). The
funding was awarded to GSU during the budget period under review.

3) The microchemical lab ($75,000) was to support CEPER projects assigned to a Principal Investigator who
has been working on the CEPER biochemical project.

4) The Infrared Spectrometer ($18,000) was used for Superfund research and education.

5) For the 600 MHz NMR Workstation ($50,000), CAU indicated it is related to Superfund research. The
Infrared Immunochemistry FT-IR/FT Raman Spectrometer ($150,000) was used for research on health effects
of environmental pollutants.

OIG Evaluation of CAU Response
Our position remains unchanged.

1) In the 1991 and 1993 CEPER workplans, CAU proposed that a portion of their indirect cost rate would be
waived and not claimed by CAU to meet the cost matching requirement. The related budgets did not mention
CAU's intention to utilize in-kind contributions as cost matching.

2) CAU's assertions about the acquisition cost and timing of the GRA awards directly contradicts GRA records
and was unsubstantiated by CAU's records.

3,4,5) CAU's assertion that the GRA equipment was related to CEPER projects was unsubstantiated by CAU's
records and other information collected during the audit. CAU did not identify the CEPER research projects that
the equipment related to.

Also, an Annual Report (for FY 1994) submitted to GRA by the Principal Investigator (PI), who took receipt of
the ($18,000) equipment, identified current support from other sponsors/agencies for which he was either PI or
Co-PI on the related research projects. They were as follows:


Project                                    Funding Source

Acyclic Ene Eyn-Allenes

  as DNA Cleaning Agents             National Institute of Health - MBRS



Bleaching of Kraft Pulp

 with Hot Oxygenaturn

 Transfer Agents                     Forest Products Laboratories



High Performance Polymer and         National Aeronautics and Space

 Ceramics Research Center              Administration

 (HiPPAC)

Investigation of Sensors,

 Energetics, and Aerosols            U.S. Army

Cumulenals as DNA Cleaning

 Agents                              CAU
The PI's list does not identify a research project under the CEPER program.
                                                ABBREVIATIONS

AID Agency for International Development

BTI Basic Technologies International

CAU Clark Atlanta University

CDC Center for Disease Control
CERCLA Comprehensive Environmental Response, Compensation

and Liability Act

CEPER Center for Environmental Policy, Education, and

Research

CFR Code of Federal Regulations

DOC Department of Commerce

DOD Department of Defense

DOE Department of Energy

DOI Department of Interior

EPA Environmental Protection Agency

FSR Financial Status Report

FY Fiscal Year

GAD Grants Administration Division

GRA Georgia Research Alliance

GSU Georgia State University

HBCU/MI Historically Black Colleges and Universities/

Minority Institutions Consortium

HHS Department of Health and Human Services

HiPPAC High Performance Polymers and Ceramics Research

Center

IAG Interagency Agreement

IPA Intergovernmental Personnel Act

MARC/MBRS Minority Access to Research Careers/Minority

Biomedical Research Program

MEBEX Minority Environmental Business Exchange

MICOM Military Command
NASA National Aeronautics and Space Administration

NIEHS National Institute of Environmental Health

Sciences

NIH National Institute of Health

NOAA National Oceanographic and Atmospheric

Administration

NSF National Science Foundation

OMB Office of Management and Budget

ONR Office of Naval Research

ORD Office of Research and Development

PAF Personnel Action Form, CAU

PRISM-D Program for Research Integration and Support for

Matriculation to the Doctorate

QA Quality Assurance

RCMI Research Centers and Minority Institutions (CAU

Faculty Development Grants Program)

RCRA Resource Conservation and Recovery Act

RTP Research Triangle Park

SARA Superfund Amendment and Reauthorization Act

SEEC Surfacing/Finding Environmental Equity Concerns

TVA Tennessee Valley Authority

USDA United States Department of Agriculture

USIA United States Information Agency

                           DEFINITIONS OF SELECTED FINANCIAL TERMS

The following definitions should assist the reader to understand the financial portions of this report.

Costs Claimed
Costs identified by CAU as allowable under the CA for the period October 1, 1991 to September 30, 1993 on a
FSR submitted to EPA. Allowable costs must be eligible, reasonable, necessary, and allocable to the project,
permitted by the appropriate Federal cost principles, and approved by EPA in the assistance agreement.

Costs Questioned

Costs questioned by OIG because they were:

a. Ineligible - claimed contrary to a provision of law, regulation, contract, grant, cooperative agreement, or
document governing the expenditure of funds.

b. Unsupported - claimed without support by adequate documentation and/or not approvals by responsible
officials.

Matching Costs

Project costs not borne by the Federal government. Matching cost may consist of cash or in-kind contributions.
                       LIST OF PROJECTS SPONSORED BY OTHER AGENCIES
                                       FOR VP/R&SP AND CEPER PIs
                                         REPORT DISTRIBUTION

Clark Atlanta University

President, Clark Atlanta University

EPA Office of Administration and Resources Management

Comptroller (3301)

Director, Office of Grants & Debarment (3901F)

Director, Grants Administration Division, Office of Grants & Debarment (3903F)

Agency Followup Official (3304)

Attn: Assistant Administrator for Administration and

Resources Management

Agency Followup Coordinator (3304)

Attn: Director, Resource Management Division

EPA Office of Research and Development

Deputy Assistant Administrator for Management (8101)

Director, Office of Research Program Management (8102)

Director, National Center for Environmental Research & Quality Assurance (8701)

EPA Office of the Administrator
Associate Administrator for Congressional and Legislative Affairs

Director, Congressional Liaison Division (1302)

Associate Administrator for Communications, Education, and Public Affairs (1701)

EPA Office of General Counsel

General Counsel (2310)

Associate General Counsel, Grants and Intergovernmental Division (2378)

Associate General Counsel, Inspector General Division (2388R)

EPA Office of Inspector General

Inspector General (2410)

Assistant Inspector General for Audit (2421)

Deputy Assistant Inspector General for Acquisition & Assistance Audits (2423)

Chief, Resources Management Unit, Policy & Resources Management Staff, Office of Audit (2421)

Special Agent-In-Charge, Atlanta Field Office, Office of Investigations

External

Liaison, General Accounting Office (3304)

Footnote

1 Funds passed through EPA to CAU for work on a hazardous waste inventory for Marine bases.

2 Federal agency acronyms are defined in Appendix 1 of this report.

3 CAU made a blanket statement in their response that all administrative deliverables except the Advisory
Board were implemented. CAU did not provide any evidence to support this claim.

4 CAU made a blanket statement in their response that all administrative deliverables except the Advisory
Board were implemented. CAU did not provide any evidence to support this claim.

5 The large quantity of computers and office machines purchased raised questions about the propriety of the
purchases. As of March 1995, CAU's equipment list showed over 360 computer-related equipment purchases,
including 244 computers and numerous purchases of copiers and facsimile machines.

6 The audit was assisted by an OIG engineering technical review of the CEPER projects as described in the
1991 and 1993 Workplan. This review assisted us in determining which projects had little or no relationship
with the Agreement's statutory scope.
